                                         September 29, 2006




MEMORANDUM TO:             Luis A. Reyes
                           Executive Director for Operations



FROM:                      Stephen D. Dingbaum /RA/
                           Assistant Inspector General for Audits


SUBJECT:                   INDEPENDENT EVALUATION OF NRC’S
                           IMPLEMENTATION OF THE FEDERAL INFORMATION
                           SECURITY MANAGEMENT ACT (FISMA) FOR FISCAL
                           YEAR 2006 (OIG-06-A-26)


Attached please find the Office of the Inspector General’s report, Independent
Evaluation of NRC’s Implementation of the Federal Information Security Management
Act (FISMA) for Fiscal Year 2006. This report reflects the results of the independent
evaluation performed by Richard S. Carson & Associates, Inc., on behalf of the NRC
Office of the Inspector General.

The evaluation determined that the NRC’s information security program has significant
deficiencies concerning the 1) lack of certification and accreditation, and 2) not
performing annual contingency plan testing. This independent evaluation also identified
eight information security program weaknesses.

During an exit conference on September 26, 2006, NRC officials provided comments
concerning the draft audit report and subsequently opted to submit formal written
comments to this report.

If you have any questions or wish to discuss this report, please call me at
415-5915 or Beth Serepca at 415-5911.

Attachment: As stated
Electronic Distribution

John T. Larkins, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Jesse L. Funches, Chief Financial Officer
Janice Dunn Lee, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
William F. Kane, Deputy Executive Director for Reactor
  and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Research,
  State and Compliance Programs, OEDO
Jacqueline E. Silber, Deputy Executive Director for Information Services
   and Administration, and Chief Information Officer, OEDO
Michael R. Johnson, Assistant for Operations, OEDO
Timothy F. Hagan, Director, Office of Administration
Cynthia A. Carpenter, Director, Office of Enforcement
Guy P. Caputo, Director, Office of Investigations
Edward T. Baker, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Jack R. Strosnider, Director, Office of Nuclear Material Safety and Safeguards
James E. Dyer, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Janet R. Schlueter, Director, Office of State and Tribal Programs
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
William D. Travers, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Bruce S. Mallett, Regional Administrator, Region IV
            EVALUATION REPORT


              Independent Evaluation of NRC’s Implementation
               of the Federal Information Security Management
                       Act (FISMA) for Fiscal Year 2006

                     OIG-06-A-26      September 29, 2006




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                           Independent Evaluation of
                          NRC’s Implementation of the
                 Federal Information Security Management Act
                              for Fiscal Year 2006




                            Contract Number: GS-00F-0001N
                          Delivery Order Number: DR-36-03-346

                                                 September 29, 2006




The views, opinions, and findings contained in this report are those of the authors and should not be construed as an official Nuclear Regulatory
                       Commission position, policy, or decision, unless so designated by other official documentation.
[Page intentionally left blank]
                                                                                         Independent Evaluation of
                                                                          NRC’s Implementation of FISMA for FY 2006


EXECUTIVE SUMMARY


BACKGROUND

           On December 17, 2002, the President signed the E-Government Act of 2002, which
           included the Federal Information Security Management Act (FISMA) of 2002. FISMA
           outlines the information security management requirements for agencies, which include
           an annual independent evaluation of the agency’s information security program1 and
           practices to determine their effectiveness. This evaluation must include testing the
           effectiveness of information security policies, procedures, and practices for a
           representative subset of the agency’s information systems. FISMA requires the annual
           evaluation to be performed by the agency’s Inspector General (IG) or by an independent
           external auditor.

           Office of Management and Budget (OMB) memorandum M-06-20, FY 2006 Reporting
           Instructions for the Federal Information Security Management Act and Agency Privacy
           Management, dated July 17, 2006, requires the agency’s IG to complete the OMB
           FISMA Reporting Template for Agency IGs. That template, along with any additional
           narrative the IG believes would provide meaningful insight into the status of the agency’s
           security or privacy program, is submitted to OMB as part of the agency’s annual FISMA
           report, and is included as Appendix C to this report.

           This report reflects the status of the agency’s information system security program as of
           the completion of fieldwork on August 31, 2006. Any information received from the
           agency subsequent to the completion of fieldwork was incorporated when possible.

PURPOSE

           The objective of this review was to perform an independent evaluation of the Nuclear
           Regulatory Commission’s (NRC) implementation of FISMA for FY 2006.

RESULTS IN BRIEF

           Program Enhancements and Improvements

           To correct weaknesses identified by the FY 2005 FISMA independent evaluation by the
           NRC Office of the Inspector General (OIG), and to address findings from the agency’s
           own evaluation, the agency has refocused its information system security program.
           Under the refocused program, the agency will first perform certification and accreditation
           for systems that are a high priority from a mission perspective and others that potentially
           pose a higher security risk (e.g., agency systems that communicate with systems outside
           the NRC network). The security certification and accreditation of information systems is
           integral to an agency’s information security program and is an important activity that
           supports the risk management process required by FISMA. Section 3.7 provides an in-

1
    For the purposes of FISMA, the agency uses the term “information system security program.”


                                                          i
                                                                       Independent Evaluation of
                                                        NRC’s Implementation of FISMA for FY 2006


depth discussion of certification and accreditation and its significance to an agency’s
information security program.

The agency has also accomplished the following since the FY 2005 FISMA independent
evaluation:

   •   The agency developed a comprehensive certification and accreditation process,
       which is not yet finalized. The agency developed templates for all certification
       and accreditation documents and instructions for completing the templates. The
       updated certification and accreditation process was also integrated into the
       agency’s new project management methodology.
   •   The agency completed annual self-assessments for all but 1 of the agency’s 30
       operational systems, for the four NRC regional offices and the Technical Training
       Center, and for 4 of 12 contractor systems.
   •   The agency updated security plans for 3 of the agency’s 30 operational systems.
       Subsequent to the completion of fieldwork, the agency provided an updated
       security plan for another system.
   •   The agency completed updated risk assessments for 3 of the agency’s 30
       operational systems. Subsequent to the completion of fieldwork, the agency
       provided an updated risk assessment for another system.
   •   The agency developed an approach for consolidation of NRC information systems
       inventory systems. According to the agency, the reconciliation and consolidation
       of data from the existing information systems inventory systems is approximately
       95 percent complete.

Significant Deficiencies

The following significant deficiencies were identified in NRC’s information system
security program.

   •   Only 1 of the 30 operational NRC information systems has a current certification
       and accreditation, and only 4 of the 12 systems used or operated by a contractor or
       other organization on behalf of the agency have a current certification and
       accreditation. The certification and accreditation for the one agency system that
       was current during this evaluation expires in October 2006.
   •   Annual contingency plan testing is not being performed.




                                         ii
                                                                         Independent Evaluation of
                                                          NRC’s Implementation of FISMA for FY 2006


     Program Weaknesses

     The independent evaluation also identified eight information system security program
     weaknesses. Five are repeat findings from the FY 2005 FISMA independent evaluation
     and are identified in the body of the report. The following three findings are new.

        •   Different approaches for the security categorization of general support systems
            result in confusion over responsibility for implementing security controls for
            high-impact systems.
        •   The Network Continuity of Operations listed system is incorrectly categorized.
        •   Known security weaknesses are not being reported on the agency’s plans of action
            and milestones (POA&M).

RECOMMENDATIONS

     This report makes recommendations to the Executive Director for Operations to improve
     NRC’s information system security program and implementation of FISMA. A
     consolidated list of recommendations appears on page 33 of this report.

AGENCY COMMENTS

     At an exit conference with the agency held on September 26, 2006, the agency provided
     informal written comments and generally agreed with the report recommendations.
     Where appropriate, the OIG modified the report in response to these comments. On
     September 28, 2006, the agency provided formal written comments, which can be found
     in Appendix D.




                                            iii
                                            Independent Evaluation of
                             NRC’s Implementation of FISMA for FY 2006




[Page intentionally left blank]




              iv
                                                                      Independent Evaluation of
                                                       NRC’s Implementation of FISMA for FY 2006


ABBREVIATIONS AND ACRONYMS


Carson Associates   Richard S. Carson and Associates, Inc.
CIO                 Chief Information Officer
FIPS                Federal Information Processing Standard
FISMA               Federal Information Security Management Act
FY                  Fiscal Year
IATO                Interim Authorization to Operate
IG                  Inspector General
IT                  Information Technology
LAN/WAN             Local Area Network/Wide Area Network
NIST                National Institute of Standards and Technology
NRC                 Nuclear Regulatory Commission
OIG                 Office of the Inspector General
OMB                 Office of Management and Budget
POA&M               Plan of Action and Milestones
SP                  Special Publication
US-CERT             United States Computer Emergency Readiness Team




                                          v
                                            Independent Evaluation of
                             NRC’s Implementation of FISMA for FY 2006




[Page intentionally left blank]




              vi
                                                                                                 Independent Evaluation of
                                                                                  NRC’s Implementation of FISMA for FY 2006


TABLE OF CONTENTS


Executive Summary ....................................................................................................... i

1 Background .............................................................................................................. 1
2 Purpose .................................................................................................................... 1
3 Findings.................................................................................................................... 1
  3.1 Total Number of Agency and Contractor Systems....................................... 4
  3.2 Agency Performance of FISMA Activities ..................................................... 8
       3.2.1 Certification and Accreditation............................................................................8
       3.2.2 Security Control Test and Evaluation ..................................................................9
       3.2.3 Contingency Planning and Testing ....................................................................11
  3.3 Oversight of Information Systems Used or Operated by Contractors or
       Other Organizations...................................................................................... 13
  3.4 Information Systems Inventory.................................................................... 14
  3.5 E-Authentication Risk Assessments ........................................................... 16
  3.6 POA&M Process ............................................................................................ 17
  3.7 Certification and Accreditation Process ..................................................... 21
  3.8 Security Configuration Policy ...................................................................... 27
  3.9 Incident Detection and Handling Procedures ............................................. 29
  3.10 Security Awareness and Training................................................................ 30
4 Consolidated List of Recommendations ............................................................. 33
5 OIG Response to Agency Comments .................................................................. 34


Appendices

    Appendix A: Scope and Methodology ............................................................... 35
    Appendix B: Status of Contingency Plan Testing ............................................ 37
    Appendix C: FY 2006 OMB FISMA Reporting Template for Agency
                Inspectors General and Additional Narrative .............................. 41
    Appendix D: Formal Agency Comments ........................................................... 51




                                                              vii
                                                                                             Independent Evaluation of
                                                                              NRC’s Implementation of FISMA for FY 2006


List of Tables

   Table 3-1. Total Number of Agency Systems by FIPS 199 Risk Impact
              Level....................................................................................................... 4
   Table 3-2. Total Number of Contractor Systems by FIPS 199 Risk Impact
              Level....................................................................................................... 5
   Table 3-3. Number of Systems Certified and Accredited by FIPS 199 Risk
              Impact Level .......................................................................................... 8
   Table 3-4. Number of Systems With Tested and Evaluated Security
              Controls by FIPS 199 Risk Impact Level ........................................... 10
   Table 3-5. Number of Systems With Tested Contingency Plans by FIPS 199
              Risk Impact Level................................................................................ 11
   Table 3-6. Program Level POA&Ms Statistics .................................................... 19
   Table 3-7. System Level POA&Ms Statistics ...................................................... 19
   Table 3-8. Summary of FY 2006 POA&Ms Through the 3rd Quarter.................. 19
   Table B-1. Status of Contingency Plan Testing.................................................. 37




                                                           viii
                                                                                        Independent Evaluation of
                                                                         NRC’s Implementation of FISMA for FY 2006


1          Background

On December 17, 2002, the President signed the E-Government Act of 2002, which included
FISMA.2 FISMA outlines the information security management requirements for agencies,
which include an annual independent evaluation of the agency’s information security program
and practices to determine their effectiveness. This evaluation must include testing the
effectiveness of information security policies, procedures, and practices for a representative
subset of the agency’s information systems. FISMA requires the annual evaluation to be
performed by the agency’s IG or by an independent external auditor.

OMB memorandum M-06-20 requires the agency’s IG to complete the OMB FISMA Reporting
Template for Agency IGs. That template, along with any additional narrative the IG believes
would provide meaningful insight into the status of the agency’s security or privacy program, is
submitted to OMB as part of the agency’s annual FISMA report.

Richard S. Carson and Associates, Inc. (Carson Associates) performed an independent evaluation
of NRC’s implementation of FISMA for FY 2006. This report presents the results of that
independent evaluation. Carson Associates also prepared the OMB FISMA Reporting Template
for Agency IGs, along with additional narrative, for inclusion in the agency’s annual FISMA
report. The OMB FISMA Reporting Template for Agency IGs and the additional narrative is
included as Appendix C to this report.

This report reflects the status of the agency’s information system security program as of the
completion of fieldwork on August 31, 2006. Any information received from the agency
subsequent to the completion of fieldwork was incorporated when possible.

2          Purpose

The objective of this review was to perform an independent evaluation of NRC’s implementation
of FISMA for FY 2006.

3          Findings

Over the past 4 years, NRC has continued to make improvements to its information system
security program, and continues to make progress in implementing the recommendations
resulting from previous FISMA evaluations. To correct weaknesses identified by the FY 2005
FISMA independent evaluation by the OIG, and to address findings from the agency’s own
evaluation, the agency has refocused its information system security program. Under the
refocused program, the agency will first perform certification and accreditation for systems that
are a high priority from a mission perspective and others that potentially pose a higher security
risk (e.g., agency systems that communicate with systems outside the NRC network). The
security certification and accreditation of information systems is integral to an agency’s
information security program and is an important activity that supports the risk management

2
    The Federal Information Security Management Act of 2002 was enacted on December 17, 2002, as part of the E-
    Government Act of 2002 (Public Law 107-347), and replaces the Government Information Security Reform Act,
    which expired in November 2002.



                                                         1
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2006


process required by FISMA. Section 3.7 provides an in-depth discussion of certification and
accreditation and its significance to an agency’s information security program.

The first phase of the refocused program included the development of a comprehensive
certification and accreditation process, which is not yet finalized. The agency developed
templates for all certification and accreditation documents and instructions for completing the
templates. The updated certification and accreditation process was also integrated into the
agency’s new project management methodology. One of the agency’s operational major
applications was chosen to “pilot” the new process and documentation standards, in part, to
ensure the new process is repeatable.

The agency has also accomplished the following since the FY 2005 FISMA independent
evaluation:

   •   The agency completed annual self-assessments for all but 1 of the agency’s 30
       operational systems, for the four NRC regional offices and the Technical Training Center,
       and for 4 of 12 contractor systems.
   •   The agency updated security plans for 3 of the agency’s 30 operational systems.
       Subsequent to the completion of fieldwork, the agency provided an updated security plan
       for another system.
   •   The agency completed updated risk assessments for 3 of the agency’s 30 operational
       systems. Subsequent to the completion of fieldwork, the agency provided an updated risk
       assessment for another system.
   •   The agency developed an approach for consolidation of NRC information systems
       inventory systems. According to the agency, the reconciliation and consolidation of data
       from the existing information systems inventory systems is approximately 95 percent
       complete.

The refocused program has not resulted in the completion of a single certification and
accreditation despite the (1) emphasis on the certification and accreditation of high priority
systems and systems with a higher security risk and (2) application of at least $500,000 in
funding to this initiative since December 2005. In the meantime, the certifications and
accreditations for all but one of the agency’s operational systems have expired.

The following significant deficiencies were identified in NRC’s information system security
program.

   •   Only 1 of the 30 operational NRC information systems has a current certification and
       accreditation, and only 4 of the 12 systems used or operated by a contractor or other
       organization on behalf of the agency have a current certification and accreditation. The
       certification and accreditation for the one agency system that was current during the
       evaluation expires in October 2006.
   •   Annual contingency plan testing is not being performed.




                                                 2
                                                                             Independent Evaluation of
                                                              NRC’s Implementation of FISMA for FY 2006


The independent evaluation also identified eight information system security program
weaknesses. Five are repeat findings from the FY 2005 FISMA independent evaluation, and
three are new.

   •   The majority of NRC systems have not been categorized in accordance with Federal
       Information Processing Standards (FIPS) Publication 199, Standards for Security
       Categorization of Federal Information and Information Systems (repeat finding).
   •   Different approaches for the security categorization of general support systems result in
       confusion over responsibility for implementing security controls for high-impact systems
       (new finding).
   •   The agency does not maintain documentation (certification and accreditation memoranda,
       self-assessments, and copies of annual contingency plan testing results) that demonstrates
       systems provided by other Federal agencies meet FISMA requirements (repeat finding).
   •   Oversight of major applications and general support systems operated by a contractor or
       other organization on behalf of the agency is lacking (repeat finding).
   •   The Network Continuity of Operations listed system is incorrectly categorized (new
       finding).
   •   E-authentication risk assessments have been completed for only 10 of the agency’s 30
       operational systems as required by OMB memorandum M-04-04, E-Authentication
       Guidance for Federal Agencies (repeat finding).
   •   Known security weaknesses are not being reported on the POA&Ms (new finding).
   •   The agency lacks policies and procedures for ensuring employees with significant
       information technology (IT) security responsibilities receive security training (repeat
       finding).

The following sections present the detailed findings from the independent evaluation. As stated
previously, some findings are new, and some are repeat findings from the previous FISMA
independent evaluation. Only new findings will have a corresponding recommendation. The
following sections are organized based on the OMB FISMA Reporting Template for Agency
IGs, which can be found in Appendix C. Each major section corresponds to a question or set of
questions from the template.




                                               3
                                                                                           Independent Evaluation of
                                                                            NRC’s Implementation of FISMA for FY 2006


3.1       Total Number of Agency and Contractor Systems

Agency Systems

                               OMB Requirement                                              OIG Response
    1. As required in FISMA, the IG shall evaluate a representative                   See Table 3-1 below.
    subset of systems, including information systems used or operated
    by an agency or by a contractor of an agency or other
    organization on behalf of an agency. By FIPS 199 risk impact
    level (high, moderate, low, or not categorized) and by bureau,
    identify the number of systems reviewed in this evaluation for each
    classification below (a., b., and c.).
    1.a. Agency Systems.

          Table 3-1. Total Number of Agency Systems by FIPS 199 Risk Impact Level
                                FIPS 199 Risk             Total             Number
                                Impact Level             Number            Reviewed
                                      High                    3                 0
                                   Moderate                   8                 0
                                      Low                     0                 0
                               Not Categorized                19                0
                                      Total                   30                0

NRC has a total of 303 operational systems that fall under FISMA reporting requirements.4 Of
the 30, 17 are general support systems,5 and 13 are major applications.6 As required by FISMA,
the NRC OIG selected a subset of NRC systems for evaluation during the FY 2006 FISMA
independent evaluation. However, during the course of fieldwork, the OIG learned that the re-
certification and re-accreditation of these systems, scheduled to be completed by August 2006,
would not be completed during the FY 2006 FISMA reporting period. Furthermore, there were
no other systems to evaluate because there were only two operational systems with a current
certification and accreditation at the time the OIG was selecting systems for evaluation. One of
these systems was evaluated by the OIG in FY 2006 and the other system’s certification and
accreditation expired during the FY 2006 FISMA reporting period. Without enough systems


3
  The agency reports 31 operational systems. The OIG disagrees with the agency that an OIG system is a major
  application. It has been categorized as a listed system since it began operations in 2004. This designation is
  presently under a detailed review. Therefore, the metrics in this report reflect a total of 30 operational systems.
4
  NRC also has a number of major applications and general support systems currently in development. For FISMA
  reporting purposes, only operational systems are considered.
5
  A general support system is an interconnected set of information resources under the same direct management
  control that share common functionality. Typical general support systems are local and wide area networks,
  servers, and data processing centers.
6
  A major application is a computerized information system or application that requires special attention to security
  because of the risk and magnitude of harm that would result from the loss, misuse, or unauthorized access to or
  modification of the information in the application.



                                                          4
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2006


with current certifications and accreditations, Carson Associates could not perform an evaluation
of a representative subset of agency systems for the FY 2006 FISMA independent evaluation.

A current certification and accreditation is needed to perform a system evaluation because it
contains a description of the current planned and in place security controls for a system. This
information is found in the system’s security plan, which is a part of a system’s certification and
accreditation package. An understanding of whether the in place security controls are operating
as intended, as well as any risk associated with operating the system with the described security
controls, is also necessary for performing a system evaluation. This information is also found in
the system’s certification and accreditation package.

Contractor Systems

                          OMB Requirement                                       OIG Response
 1. As required in FISMA, the IG shall evaluate a representative         See Table 3-2 below.
 subset of systems, including information systems used or operated
 by an agency or by a contractor of an agency or other
 organization on behalf of an agency. By FIPS 199 risk impact
 level (high, moderate, low, or not categorized) and by bureau,
 identify the number of systems reviewed in this evaluation for each
 classification below (a., b., and c.).
 1.b. Contractor Systems.

      Table 3-2. Total Number of Contractor Systems by FIPS 199 Risk Impact Level
                           FIPS 199 Risk         Total          Number
                           Impact Level         Number         Reviewed
                                High                 0             0
                             Moderate                0             0
                                Low                  1             0
                          Not Categorized            11            0
                                Total                12            0

NRC has a total of 12 systems operated by a contractor or other organization on behalf of the
agency (8 major applications and 4 general support systems). Of the 12, 7 are operated by other
Federal agencies, 2 are operated by federally funded research and development centers, and 3 are
operated by private contractors. Carson Associates selected 1 of the 12 systems operated by a
contractor or other organization on behalf of the agency for evaluation during the FY 2006
FISMA independent evaluation. However, that system did not have a current certification and
accreditation and there was not sufficient information available to perform an evaluation.




                                                 5
                                                                                            Independent Evaluation of
                                                                             NRC’s Implementation of FISMA for FY 2006


FINDING A – Majority of NRC Systems Have Not Been Categorized in Accordance With
FIPS 199 (Repeat Finding)

FIPS 199 requires all agencies to categorize their information and information systems. The
security categories are based on the potential impact on an organization should certain events
occur which jeopardize the information and information systems needed by the organization to
accomplish its assigned mission, protect its assets, fulfill its legal responsibilities, maintain its
day-to-day functions, and protect individuals. All systems should have been categorized using
FIPS 199 by February 2005.

However, despite this requirement, Carson Associates found that the majority of NRC
information systems, including systems operated by a contractor or other organization on behalf
of the agency, still have not been categorized in accordance with FIPS 199. Specifically, only 11
of the 30 operational NRC information systems have been categorized. Only 1 of the 12
contractor systems has been categorized.7

This is a repeat finding from the FY 2005 FISMA independent evaluation. Of the eight security
categorizations evaluated in FY 2005 (1) four were updated in FY 2006, (2) three are being
revised as part of the re-certification and re-accreditation of their respective systems (two are
complete, but have not been approved), and (3) one is for a system that has been combined with
another system. In FY 2006, the agency completed another seven security categorizations for
NRC systems, and one for a contractor system. According to the agency, the current target date
for completing all system security categorizations is the end of calendar year 2006.

Not only is security categorization required by FIPS 199, it is needed to select the minimum
security controls for a system as defined in NIST Special Publication (SP) 800-53,
Recommended Security Controls for Federal Information Systems. As a result, the agency
cannot determine the appropriate minimum security controls for its information systems and
cannot determine whether the current controls for the information systems are adequate. In
addition, the agency cannot be assured they are using the correct minimum security control
baseline from NIST SP 800-53 when performing its annual self-assessments.

FINDING B – Different Approaches for the Security Categorization of General Support
Systems Result in Confusion Over Responsibility for Implementing Security Controls for
High-Impact Systems (New Finding)

FIPS 199 states that for an information system, the potential impact values assigned to the
respective security objectives (confidentiality, integrity, availability) shall be the highest values
from among those security categories that have been determined for each type of information
resident on the information system. NIST SP 800-18, Revision 1, Guide for Developing Security
Plans for Federal Information Systems, states that a general support system can have a FIPS 199
impact level of low, moderate, or high in its security categorization depending on the criticality
or sensitivity of the system and any major applications the general support system is supporting.

7
    The agency has reported that an additional four agency systems have been categorized. However security
    categorizations for these systems are still under review by the agency or were not approved. Therefore, these
    systems are not included in the metrics.



                                                            6
                                                                                           Independent Evaluation of
                                                                            NRC’s Implementation of FISMA for FY 2006




The agency has categorized one of its general support systems as a high-impact system. The
agency has categorized another general support system as a moderate-impact system. While the
majority of the systems supported by the first general support system are categorized as low or
moderate, there are a few systems supported by that general support system that are categorized
as high. For this reason, this general support system was divided into two subsystems: a general
support system for moderate-impact systems and a general support system for high-impact
systems. This approach is consistent with NIST guidance.

In order to function in a cost-effective manner suitable for most NRC systems, the other general
support system will only process information at a moderate level. Thus, the rational for the
moderate-impact security categorization for that system. It is incumbent upon high-impact
systems that rely on moderate-impact general support systems to implement the additional
controls required by a high-impact categorization. This approach, also consistent with NIST
guidance, is often used when an agency has only a few high-impact systems and it would be
more cost-effective for the systems with the high-impact security categorization to implement the
additional controls. However, this approach is not consistent with the approach taken with the
first general support system, resulting in confusion as to who is responsible for implementing the
additional controls.

As a result of the different approaches taken when categorizing general support systems, system
owners may assume that a general support system is providing controls commensurate with their
system’s impact level, when in fact the general support system does not. This possible scenario
is illustrated in two of the FY 2006 self-assessments for systems that have been categorized as
high-impact systems.8 The security control SI-3, malicious code protection, includes one
enhancement at the moderate-impact level, and an additional enhancement at the high-impact
level. Both self-assessments reflect the system owners’ belief that the second enhancement is
implemented at the agency-level, and not by the system. One of the two self-assessments
specifically states that this enhancement is “inherited” from the moderate-impact general support
system described above, as well as from two other general support systems. However, the self-
assessments for those general support systems do not address the second enhancement as the
systems were only categorized as moderate-impact systems.

Therefore, it is imperative that the agency clearly identify those additional controls that high-
impact systems would not “inherit” from underlying general support systems that have a
moderate-impact categorization. It is also imperative that system owners of high-impact systems
understand that they are responsible for implementing those additional controls.




8
    Only one of the security categorizations for the two systems whose self-assessments are discussed in the example
    has been approved by the agency. The self-assessment for the other system was based on a high-impact security
    categorization.



                                                           7
                                                                                 Independent Evaluation of
                                                                  NRC’s Implementation of FISMA for FY 2006


RECOMMENDATION

      The Office of the Inspector General recommends that the Executive Director for Operations:

      1. Clearly identify the additional controls that are the responsibility of a high-impact system
         when a general support system categorized as having moderate-impact supports a high-
         impact system.

3.2      Agency Performance of FISMA Activities

3.2.1 Certification and Accreditation

                            OMB Requirement                                       OIG Response
 2. For each part of this question, identify actual performance over       See Table 3-3 below.
 the past fiscal year by risk impact level and bureau, in the format
 provided below. From the representative subset of systems
 evaluated, identify the number of systems which have completed
 the following: have a current certification and accreditation, a
 contingency plan tested within the past year, and security controls
 tested within the past year.
 2.a. Number of systems certified and accredited.

 Table 3-3. Number of Systems Certified and Accredited by FIPS 199 Risk Impact Level
                     FIPS 199 Risk
                                           Agency       Contractor          Total
                     Impact Level
                          High                0              0                0
                        Moderate              0              0                0
                          Low                 0              0                0
                    Not Categorized           1              4                5
                          Total               1              4                5

Agency Systems

Only 1 of the 30 operational NRC information systems has a current certification and
accreditation. The certification and accreditation for this system will expire in October 2006.
Section 3.7 of this report discusses the assessment of the agency’s certification and accreditation
process in detail.

Contractor Systems

Of the 12 systems operated by a contractor or other organization on behalf of the agency, only 4
have been certified and accredited. These four systems are operated by other Federal agencies.
Of the remaining eight, three are operated by other Federal agencies, two are operated by
federally funded research and development centers, and three are operated by private contractors.


                                                    8
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2006


The FY 2005 FISMA independent evaluation found that the agency does not maintain
documentation that demonstrates systems provided by other Federal agencies meet FISMA
requirements and that oversight for other contractor systems is lacking. Section 3.3 of this report
discusses the assessment of the agency’s oversight of information systems used or operated by a
contractor or other organization on behalf of the agency. Section 3.3 also discusses the current
status of recommendations from the FY 2005 FISMA independent evaluation regarding these
findings.

FINDING C – The Majority of NRC Systems Are Not Certified and Accredited (Significant
Deficiency)

OMB defines a significant deficiency as “a weakness in an agency’s overall information systems
security program or management control structure, or within one or more information systems
that significantly restricts the capability of the agency to carry out its mission or compromises
the security of its information, information systems, personnel, or other resources, operations, or
assets.” OMB Circular A-130, Management of Federal Resources, Appendix III, Security of
Federal Automated Information Resources, provides three specific examples of a significant
deficiency, each of which must be reported as such – (1) the failure to assign responsibility for
security of the system or application, (2) the lack of a system security plan, and (3) the absence
of authorization to process (certification and accreditation).

In accordance with OMB requirements, the fact that only 1 of the 30 operational NRC
information systems has a current certification and accreditation, and that only 4 of the 12
systems used or operated by a contractor or other organization on behalf of the agency have a
current certification and accreditation, constitutes a significant deficiency. This deficiency is not
a recent problem. The agency has made little progress in correcting the deficiency, and
according to the agency, completion of all outstanding certifications and accreditations is not
expected to be completed until 2009.

3.2.2 Security Control Test and Evaluation

                          OMB Requirement                                       OIG Response
 2. For each part of this question, identify actual performance over     See Table 3-4 below.
 the past fiscal year by risk impact level and bureau, in the format
 provided below. From the representative subset of systems
 evaluated, identify the number of systems which have completed
 the following: have a current certification and accreditation, a
 contingency plan tested within the past year, and security controls
 tested within the past year.
 2.b. Number of systems for which security controls have been
 tested and evaluated in the last year.




                                                  9
                                                                                           Independent Evaluation of
                                                                            NRC’s Implementation of FISMA for FY 2006


Table 3-4. Number of Systems With Tested and Evaluated Security Controls by FIPS 199
                                 Risk Impact Level
                         FIPS 199 Risk
                                                  Agency          Contractor           Total
                         Impact Level
                              High                    3                0                 3
                            Moderate                  8                0                 8
                               Low                    0                1                 1
                        Not Categorized              18                3                21
                              Total                  29                4                33

Agency Systems

FISMA requires agencies to test and evaluate the security controls of every information system
identified in their inventory no less than annually. The necessary depth and breadth of an annual
system review depends on several factors such as (1) the potential risk and magnitude of harm to
the system or data, (2) the relative comprehensiveness of the most recent past review, and (3) the
adequacy and successful implementation of the POA&M for weaknesses in the system. For
example, if last year a system underwent a complete certification and accreditation, this year a
relatively simple update or maintenance review may be sufficient, provided it has been
adequately documented. The FY 2006 FISMA guidance allows agencies to use either (1) NIST
SP 800-26, Security Self-Assessment Guide for Information Technology Systems, or (2) FIPS
200, Minimum Security Requirements for Federal Information and Information Systems, and
NIST SP 800-53 for the specification and assessment of security controls for Federal information
systems.

NRC meets the FISMA requirement to test and evaluate the security controls of agency
information systems by performing annual self-assessments on the systems. In addition, NRC
developed a self-assessment for common controls that are applicable to all NRC systems. NRC
performed self-assessments on all agency operational systems with the exception of one general
support system. NRC also performed self-assessments on the four NRC regional offices and the
NRC Technical Training Center.9

Contractor Systems

NRC performed self-assessments on 4 of the 12 systems operated by a contractor or other
organization on behalf of the agency. Of the four, two were full self-assessments, and two were
site assessments. The remaining 8 systems operated by a contractor or other organization on
behalf of the agency are operated by other Federal agencies. As stated previously, the FY 2005
FISMA independent evaluation found that the agency does not maintain documentation that
demonstrates systems provided by other Federal agencies meet FISMA requirements. Refer to


9
    The self-assessments for the regional offices and the Technical Training Center were only site assessments. As
    such, only the physical and environmental, and personal security controls were evaluated as part of the site
    assessment.



                                                           10
                                                                                           Independent Evaluation of
                                                                            NRC’s Implementation of FISMA for FY 2006


Section 3.3 of this report for a discussion of the current status of recommendations from the FY
2005 FISMA independent evaluation regarding these findings.

3.2.3 Contingency Planning and Testing

                                 OMB Requirement                                            OIG Response
 2. For each part of this question, identify actual performance over                 See Table 3-5 below.
 the past fiscal year by risk impact level and bureau, in the format
 provided below. From the representative subset of systems
 evaluated, identify the number of systems which have completed
 the following: have a current certification and accreditation, a
 contingency plan tested within the past year, and security controls
 tested within the past year.
 2.c. Number of systems for which contingency plans have been
 tested in accordance with policy and guidance.

 Table 3-5. Number of Systems With Tested Contingency Plans by FIPS 199 Risk Impact
                                       Level
                         FIPS 199 Risk
                                                  Agency         Contractor           Total
                         Impact Level
                               High                  0                 0                0
                            Moderate                 3                 0                3
                               Low                   0                 1                1
                        Not Categorized              0                 0                0
                              Total                  3                 1                4

Agency Systems

NIST SP 800-34, Contingency Planning Guide for Information Technology Systems, states that
contingency plans should be tested at least annually and when significant changes are made to
the information system, supported business process(s), or the contingency plan. As of September
1, 2006, Carson Associates had received contingency plan testing results for only 1 of NRC’s 30
operational information systems. Subsequent to the completion of fieldwork, the agency
provided contingency plan testing results for three additional systems, however the agency has
only reviewed and approved the results for two of the additional systems.

Contractor Systems

Of the 12 systems operated by a contractor or other organization on behalf of the agency, only 1
has had its contingency plan tested in the past year.10 As stated previously, the FY 2005 FISMA
independent evaluation found that the agency does not maintain documentation that

10
     Documentation supporting the contingency plan testing for this system was also provided subsequent to the
     completion of fieldwork.



                                                           11
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2006


demonstrates systems provided by other Federal agencies meet FISMA requirements. Refer to
Section 3.3 of this report for a discussion of the current status of recommendations from the FY
2005 FISMA independent evaluation regarding these findings.

FINDING D – Annual Contingency Plan Testing Is Not Being Performed (Significant
Deficiency)

As stated previously, NIST SP 800-34 states that contingency plans should be tested at least
annually. However, despite this requirement, Carson Associates found that only 3 of the
agency’s 30 operational information systems, and 1 of the agency’s contractor systems, have had
their contingency plans tested in FY 2006.

This is a repeat finding from the FY 2005 FISMA independent evaluation. The OIG
recommended that the agency develop and implement procedures to ensure contingency plans
are tested annually, regardless of the status of a system’s certification and accreditation.
According to the agency, resources have not been available to support completion of annual
contingency plan testing (including test reporting and contingency plan update). According to
the agency, the current target date for completing contingency plan testing for all agency systems
is August 1, 2007. However, the 3rd Quarter FY 2006 POA&Ms submitted to OMB have
projected completion dates for contingency plan testing as late as December 2008.

The following is a summary of the status of contingency plan testing for the 30 operational NRC
systems:

   •   Five systems have never had their contingency plans tested.
   •   Two systems have never had their contingency plans tested, as they are new general
       support systems identified when the NRC local area network/wide area network
       (LAN/WAN) was divided into several general support systems. There is insufficient
       documentation to determine whether these systems were covered by previous LAN/WAN
       contingency plan tests.
   •   One system has not had its contingency plan tested in over 3 years.
   •   Fifteen systems have not had their contingency plans tested in over 2 years. Many of
       these systems are general support systems that were identified when the LAN/WAN was
       divided into several general support systems. There is insufficient documentation to
       determine whether these systems were fully covered by previous LAN/WAN contingency
       plan tests.
   •   Two systems had their contingency plans tested in 2005.
   •   Five systems had their contingency plans tested in 2006 (two are still under agency
       review).

See Appendix B for details on the status of contingency plan testing for all agency operational
systems, as well as for one contractor system.

As stated previously, OMB defines a significant deficiency as “a weakness in an agency’s
overall information systems security program or management control structure, or within one or



                                                12
                                                                                             Independent Evaluation of
                                                                              NRC’s Implementation of FISMA for FY 2006


more information systems that significantly restricts the capability of the agency to carry out its
mission or compromises the security of its information, information systems, personnel, or other
resources, operations, or assets.”

FISMA defines eight primary components of an agency’s information system security program,
including (1) annual testing of management, operational, and technical controls of every
information system identified in the agency’s inventory, and (2) plans and procedures to ensure
continuity of operations for information systems that support the operations and assets of the
agency.

The testing of contingency plans is a key element of the two information system security
program components described above. It is essential in determining whether plans will function
as intended in an emergency situation. Without testing, the agency has limited assurance that it
will be able to recover mission-critical applications, business processes, and information in the
event of an unexpected interruption. Even a minor interruption could result in lost or incorrectly
processed data if the contingency plan has not been tested.

In accordance with OMB requirements, the fact that the agency has failed to conduct annual
contingency plan testing for the past two years constitutes a significant deficiency. This
deficiency is not a recent problem and the agency has made little progress in correcting the
deficiency. According to the agency, completion of all contingency plan testing is not
anticipated for at least another year.

3.3         Oversight of Information Systems Used or Operated by Contractors or
            Other Organizations

                                   OMB Requirement                                              OIG Response
 3.a. The agency performs oversight and evaluation to ensure                              Mostly, for example,
 information systems used or operated by a contractor of the agency                       approximately 81-95%
 or other organization on behalf of the agency meet the requirements                      of the time
 of FISMA, OMB policy and NIST guidelines, national security
 policy, and agency policy. Self-reporting of NIST Special
 Publication 800-26and/or NIST 800-53 requirements by a
 contractor or other organization is not sufficient, however, self-
 reporting by another Federal agency may be sufficient.

FISMA requires agencies to provide information security protections commensurate with the risk
and magnitude of harm resulting from unauthorized access, use, disclosure, disruption,
modification, or destruction of (1) information collected or maintained by or on behalf of the
agency and (2) information systems used or operated by an agency or other organization on
behalf of an agency.11



11
      Information systems used or operated by a contractor of an agency or other organization on behalf of the agency
     refers to information systems that the agency considers to be either major applications or general support systems.



                                                             13
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2006


FINDING E – Agency Does Not Maintain Documentation That Demonstrates Systems
Provided By Other Federal Agencies Meet FISMA Requirements (Repeat Finding)

The FY 2005 FISMA independent evaluation found that the agency does not maintain
documentation that demonstrates systems provided by other Federal agencies meet FISMA
requirements. The OIG made three recommendations to address this finding. According to the
agency, the scheduled completion date for these recommendations was August 31, 2006.

As of September 1, 2006, the agency had received certification and accreditation memoranda for
four of the seven systems provided by Federal agencies. The agency has been working with the
offices to assist in acquiring the required documentation for the remaining Federal systems.
However, according to the agency, some of the other Federal agencies have been unwilling to
provide documentation that demonstrates they meet FISMA requirements. The other Federal
agencies have also been unwilling to share copies of their annual self-assessments or results from
their annual contingency plan testing. In a follow-up memorandum to the agency regarding the
status of these recommendations, the OIG suggested a possible solution to the problem. The
OIG stated that a memorandum from the Federal agencies stating that annual self-assessments
and annual contingency plan testing have been completed will be sufficient to meet the intent of
the recommendations. The agency is currently working towards obtaining such memoranda.

FINDING F – Oversight of Other Contractor Systems Is Lacking (Repeat Finding)

The FY 2005 FISMA independent evaluation also found that oversight of other contractor
systems is lacking. The OIG made one recommendation to address this finding. According to
the agency, the scheduled completion date for this recommendation is December 29, 2006.

The agency recently learned that development systems are connected to the NRC operational
environment via a general support system operated by a contractor, resulting in significant risk to
the infrastructure. This recent development illustrates the need to develop policies and
procedures for performing oversight of contractor systems as soon as possible.

3.4    Information Systems Inventory

                          OMB Requirement                                       OIG Response
 3.b.1. The agency has developed an inventory of major information        Approximately 51-70%
 systems (including major national security systems) operated by or       complete
 under the control of such agency, including an identification of the
 interfaces between each such system and all other systems or
 networks, including those not operated by or under the control of
 the agency.
 3.b.2. If the Agency IG does not evaluate the Agency’s inventory as      Missing: Network
 96-100% complete, please list the systems that are missing from the      Continuity of
 inventory.                                                               Operations
 3.c. The OIG generally agrees with the Chief Information Officer         Yes
 (CIO) on the number of agency owned systems.



                                                14
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2006


                          OMB Requirement                                        OIG Response
 3.d. The OIG generally agrees with the CIO on the number of               Yes
 information systems used or operated by a contractor of the agency
 or other organization on behalf of the agency.
 3.e. The agency inventory is maintained and updated at least              Yes
 annually.

FISMA requires agencies to develop and maintain an inventory of major information systems
operated by or under control of the agency. The inventory must include an identification of the
interfaces between each such system and all other systems or networks, including those not
operated by or under the control of the agency. The inventory must be updated at least annually
and must also be used to support information resources management.

While FISMA requires agencies to maintain an inventory of only major information systems
(major applications and general support systems), NRC also tracks two other system types in its
inventories – Listed and Other.

   •   Listed – a computerized information system or application that (1) processes sensitive
       information requiring additional security protections and (2) may be important to an NRC
       office’s or region’s operations, but which is not a major application or general support
       system when viewed from an agency perspective. Sensitive data may include individual
       Privacy Act information, law enforcement sensitive information, sensitive contractual
       and financial information, safeguards, and classified information.
   •   Other – an NRC system that does not require additional security protections and is
       adequately protected by the security provided by the NRC LAN/WAN.

The FY 2005 FISMA independent evaluation found that the agency’s inventory was only 51-70
percent completed because (1) information in the agency’s two inventory systems was inaccurate
and inconsistent and (2) only one of the two inventory systems contained information on system
interfaces. In FY 2005, Carson Associates generally agreed with the CIO on the number of
agency owned major applications and general support systems, but did not agree with the CIO on
the number of agency owned systems in the listed and other categories. Carson Associates also
found that the agency’s inventory was not maintained and updated at least annually.

In FY 2006, Carson Associates again generally agreed with the CIO on the number of agency
owned major applications and general support systems. However, Carson Associates could not
fully evaluate the following questions from the OMB FISMA Reporting Template for Agency
IGs, as the agency had not completed the recommendations resulting from the FY 2005 FISMA
independent evaluation regarding problems with the inventory.

   •   Does the inventory include information on system interfaces? (2nd part of 3.b.1)
   •   Does the OIG generally agree on the number of agency owned systems? (3.c)
   •   Is the inventory maintained and updated at least annually? (3.e)




                                               15
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2006


In response to the FY 2005 findings regarding the inventory, the agency developed an approach
for consolidation of the agency’s inventory systems. According to the agency, the reconciliation
and consolidation of the two inventories evaluated in FY 2005 is approximately 95 percent
complete. The agency is continuing to work to resolve inaccuracies in the existing inventories,
and has estimated that the inventories will be reconciled and ready for upload into the new NRC
Systems Inventory and Configuration Database by July 30, 2006. However, as of September 1,
2006, the agency had not demonstrated that the reconciliation has been completed.

FINDING G – The Network Continuity of Operations Listed System Is Incorrectly
Categorized (New Finding)

OMB memorandum M-06-20 provides examples of high-impact systems. The memorandum
states that all systems identified as “necessary to support agency continuity of operations” are
high-impact systems. These systems would include, for example, telecommunications systems
identified in agency reviews under OMB’s June 30, 2005, memorandum M-05-16, Regulation on
Maintaining Telecommunications Service During Crisis or Emergency in Federally-owned
Buildings.

The agency’s Network Continuity of Operations system is currently categorized as a listed
system. In accordance with OMB guidance, the Network Continuity of Operations system is a
high-impact system, and therefore should be categorized as a general support system, and not a
listed system.

RECOMMENDATION

      The Office of the Inspector General recommends that the Executive Director for Operations:

      2. Re-categorize the Network Continuity of Operations system as a general support system.

3.5      E-Authentication Risk Assessments

                            OMB Requirement                                     OIG Response
 3.f. The agency has completed system e-authentication risk               No
 assessments.

In December 2003, OMB issued memorandum M-04-04, E-Authentication Guidance for Federal
Agencies. The guidance applies to remote authentication of human users of Federal agency
information technology systems for the purposes of conducting Government business
electronically (or e-Government). Remote authentication occurs when users identify and
authenticate to information systems from outside of a specified security perimeter that is
considered to offer sufficient protection. Performing an e-authentication risk assessment can
also assist agencies in determining the appropriate identification and authentication controls for
their systems. In addition, the e-authentication initiative is the first reusable component of the
Federal Enterprise Architecture, the second e-Government cross cutting initiative. Part of the
Federal Enterprise Architecture plan is that the vast majority of Federal systems incorporating
authentication functions should migrate to support e-authentication over time.



                                                16
                                                                                         Independent Evaluation of
                                                                          NRC’s Implementation of FISMA for FY 2006




FINDING H – E-Authentication Risk Assessments Have Not Been Completed (Repeat
Finding)

The FY 2005 FISMA independent evaluation found that e-authentication risk assessments had
been completed for only 6 of the agency’s 27 operational systems.12 In FY 2005, Carson
Associates reviewed the six completed e-authentication risk assessments and found them to be
incorrect and inconsistent with the systems’ FIPS 199 security categorizations. For example, in
some instances, the e-authentication assurance level was incorrectly determined based on the
impact levels assigned to the six categories of harm and impact defined in OMB memorandum
M-04-04. In other instances, the impact levels assigned to the six categories of harm and impact
were not consistent with the FIPS 199 security categorizations of the systems. In FY 2005, the
agency stated that e-authentication risk assessments would be “supported under the interim
Information Systems Security contract awarded August 11, 2005, and were expected to be
completed by December 15, 2005.”

However, as of September 1, 2006, the agency had only provided e-authentication risk
assessments for 10 of the agency’s 30 operational systems, and 1 of the agency’s contractor
systems. According to the agency, the current target date for completing all outstanding e-
authentication risk assessments is July 30, 2007.

3.6        POA&M Process

                                 OMB Requirement                                           OIG Response
 4.a. The POA&M is an agency wide process, incorporating all                         Almost Always, for
 known IT security weaknesses associated with information systems                    example,
 used or operated by the agency or by a contractor of the agency or                  approximately 96-
 other organization on behalf of the agency.                                         100% of the time
 4.b. When an IT security weakness is identified, program officials                  Almost Always, for
 (including CIOs, if they own or operate a system) develop,                          example,
 implement, and manage POA&Ms for their system(s).                                   approximately 96-
                                                                                     100% of the time
 4.c. Program officials, including contractors, report to the CIO on a               Almost Always, for
 regular basis (at least quarterly) on their remediation progress.                   example,
                                                                                     approximately 96-
                                                                                     100% of the time
 4.d. CIO centrally tracks, maintains, and reviews POA&M activities                  Almost Always, for
 on at least a quarterly basis.                                                      example,
                                                                                     approximately 96-
                                                                                     100% of the time




12
     In FY 2005, the agency had 27 operational systems. The agency now has 30 operational systems.



                                                         17
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2006


                           OMB Requirement                                      OIG Response
 4.e. OIG findings are incorporated into the POA&M process.               Almost Always, for
                                                                          example,
                                                                          approximately 96-
                                                                          100% of the time
 4.f. POA&M process prioritizes IT security weaknesses to help            Almost Always, for
 ensure significant IT security weaknesses are addressed in a timely      example,
 manner and receive appropriate resources.                                approximately 96-
                                                                          100% of the time

NRC has two primary tools for tracking IT security weaknesses associated with information
systems used or operated by the agency or by a contractor of the agency or other organization on
behalf of the agency. At a high level, NRC uses the POA&Ms submitted to OMB to track (1)
corrective actions from the OIG annual independent evaluation, (2) corrective actions from the
agency’s annual review, and (3) recurring FISMA and IT security action items such as annual
self-assessments, and annual contingency plan testing. The POA&Ms may also include
corrective actions resulting from other security studies conducted by or on behalf of NRC.

At a more detailed level, NRC uses an internal system to track the progress of more specific
corrective actions. These include corrective actions resulting from activities associated with the
certification and accreditation process (e.g., risk assessment, security test and evaluation).

The agency has made minimal progress in correcting weaknesses reported on its POA&Ms. The
agency has corrected 15 percent of its program level weaknesses, and 22.7 percent of its system
level weaknesses. The majority of delays have been caused by delays in completing
certifications and accreditations, as described later in this report in Section 3.7.

In assessing the agency’s POA&M process, Carson Associates also found that (1) the metrics
submitted to OMB often deviated from the actual POA&Ms, (2) the agency is not always
following OMB’s POA&M guidance, and (3) known security weaknesses are not being reported
on the POA&M.

NRC Has Made Minimal Progress in Correcting Weaknesses Reported on Its POA&Ms

The agency carried over a total of 3 program level and 136 system level weaknesses from FY
2005 into FY 2006. The following tables provide statistics from the three FY 2006 POA&Ms
the agency has submitted to OMB.




                                                18
                                                                                  Independent Evaluation of
                                                                   NRC’s Implementation of FISMA for FY 2006


                           Table 3-6. Program Level POA&Ms Statistics
                                                                                             # For Start
               # At Start of
    Quarter                          # New   # Completed    # On-going       # Delayed         of Next
                 Quarter
                                                                                              Quarter
 Q1                  3                10           0            10                3               13
 Q2                 13                 7           5            8                 7               15
 Q3                * 16               20           2            27                7               34
** A weakness was reported as closed in Q2 in error and was reported correctly as delayed in
   Q3.

                               Table 3-7. System Level POA&Ms Statistics
                                                                                             # For Start
               # At Start of
    Quarter                          # New    # Completed   # On-going       # Delayed         of Next
                 Quarter
                                                                                              Quarter
 Q1                 136               71          12           100               95              195
 Q2               * 194               34          17           107               104             211
 Q3                 211               14          37            43               145             188
*     A weakness that was not IT related was removed from the POA&M.

The following table summarizes the total number of weaknesses included in the FY 2006
POA&Ms, the total number of corrective actions the agency has reported as completed, the total
number of corrective actions that are still on-going, and the number of corrective actions whose
completion has been delayed.

               Table 3-8. Summary of FY 2006 POA&Ms Through the 3rd Quarter
                            Total #           Total #        Total #         Total #            %
                          Weaknesses         Completed      On-going         Delayed         Completed
     Program Level              40             *7 (6)         27                 7              15 %
     System Level               255          ** 66 (58)       43               145             22.7 %
* One program level weakness was reported as closed in error
** Eight system level weaknesses were reported as closed in error

It should be noted that the six program level corrective actions completed in FY 2006 were from
previous FISMA reports. However, of the 58 system level corrective actions completed in FY
2006, only 3 were from previous FISMA reports. The following is a summary of the remaining
55 system level corrective actions completed in FY 2006:

      •   2 were reported as completed, but are considered not completed by OIG.
      •   6 were reported as completed, but the documents related to the weakness have not been
          reviewed by the agency, or were not approved by the agency.
      •   5 were reported as completed due to a re-categorization of the system or because a
          system was combined with another system.


                                                       19
                                                                             Independent Evaluation of
                                                              NRC’s Implementation of FISMA for FY 2006


   •   14 of the completed corrective actions were action items to complete monthly status
       reports required by interim approval to operate memoranda.
   •   13 of the completed corrective actions were action items resulting from the agency’s
       annual security reviews (e.g., complete annual self-assessments, complete annual
       contingency plan testing).
   •   15 of the completed corrective actions were action items resulting from other OIG
       reviews.

Metrics Submitted to OMB Deviate From the Actual POA&Ms

As in FY 2005, Carson Associates found discrepancies between the metrics submitted to OMB
and the actual POA&Ms. However, the discrepancies in the metrics are not significant enough
to report as a weakness and are due, in part, to the large number of weaknesses being tracked on
the agency’s POA&Ms.

The Agency Is Not Always Following OMB’s POA&M Guidance

As stated previously, the agency is not always following OMB’s POA&M guidance. The
following are some examples of deviations from OMB’s POA&M guidance found on the FY
2006 POA&Ms.

   •   The agency reported five weaknesses from OIG reports as completed when the OIG still
       considered the weaknesses as resolved. All but two have been subsequently closed by
       the OIG.
   •   The agency reported six weaknesses as completed when the agency had not reviewed
       and/or approved supporting documentation. In one case, a document was actually not
       accepted; therefore, the weakness was not actually completed.
   •   The agency reported nine weaknesses as completed in error. Carson Associates could not
       determine whether these errors were an oversight, or were because the agency is not
       verifying that the weaknesses were actually completed.
   •   Weaknesses with completion dates over a year old are not always removed from the
       POA&Ms.

While the agency is not always following OMB’s POA&M guidance, the agency is using the
POA&Ms to track almost all known security weaknesses. Program officials report to the CIO on
a quarterly basis on their remediation process. In some cases, program officials are required to
report to the CIO on a monthly basis.

FINDING I – Known Security Weaknesses Are Not Being Reported on the POA&Ms (New
Finding)

OMB guidance states that agency POA&Ms must reflect known security weaknesses within an
agency and shall be used by the agency, program officials, and the IG as the authoritative agency
management mechanism to prioritize, track, and manage all agency efforts to close security




                                               20
                                                                                                Independent Evaluation of
                                                                                 NRC’s Implementation of FISMA for FY 2006


performance gaps. However, Carson Associates found that not all known security weaknesses
are being reported on the POA&Ms.

Penetration Testing

The agency conducted a penetration test in December 2005. The penetration testing report dated
March 29, 2006, included a total of eighteen findings with corresponding recommendations. The
most recent POA&Ms do not include all of the recommendations resulting from the December
penetration testing. There are some very general corrective actions on the POA&Ms, such as
“Review results from Penetration Test, determine necessary actions, and develop task/milestone
schedule for task.” However, it is not clear which specific recommendations from the
penetration testing report are addressed by these corrective actions.

Business Continuity Plan Testing

The findings from two contingency plan tests conducted in 2005, and one contingency plan test
conducted in 2006, were not reported on the respective system POA&Ms.

RECOMMENDATION

       The Office of the Inspector General recommends that the Executive Director for Operations:

       3. Re-evaluate the procedures developed for identifying weaknesses to be tracked to ensure
          all known security weaknesses are reported on the POA&Ms.

3.7         Certification and Accreditation Process

                                    OMB Requirement                                                 OIG Response
 5. Assess the overall quality of the Department’s certification and                         Fail
 accreditation process.

Certification and Accreditation

The security certification and accreditation of information systems is integral to an agency’s
information security program and is an important activity that supports the risk management
process required by FISMA. Information systems under development must be certified and
accredited prior to becoming operational. Operational information systems must be re-certified
and re-accredited every 3 years in accordance with Federal policy,13 and whenever there is a
significant change14 to the information system or its operational environment.

13
      OMB Circular A-130, Appendix III.
14
      Examples of significant changes to an information system that should be reviewed for possible re-accreditation
     include (1) installation of a new or upgraded operating system, middleware component, or application; (2)
     modifications to system ports, protocols, or services; (3) installation of a new or upgraded hardware platform or
     firmware component; and (4) modifications to cryptographic modules or services. Changes in laws, directives,
     policies, or regulations, while not always directly related to the information system, can also potentially affect the
     system security and trigger a re-accreditation action.



                                                              21
                                                                                        Independent Evaluation of
                                                                         NRC’s Implementation of FISMA for FY 2006




The following diagram15 illustrates the key activities, including certification and accreditation, in
managing enterprise-level risk, i.e., risk resulting from the operation of an information system.
As illustrated in the diagram, NIST has developed several standards and guidelines to support the
management of enterprise risk. Some of these guidelines and standards were developed only
within the past two years, requiring agencies to make changes to their certification and
accreditation policies and procedures. NIST SP 800-37, Guide for the Security Certification and
Accreditation of Federal Information Systems, provides guidelines for certification and
accreditation.




Security certification is a comprehensive assessment of the management, operational, and
technical security controls16 planned and in place in an information system to determine the
extent to which the controls are (1) implemented correctly, (2) operating as intended, and (3)
producing the desired outcome with respect to meeting the security requirements for the

15
    The diagram was adapted from a diagram found in the NIST presentation “Building More Secure Information
   Systems: A Strategy for Effectively Applying the Provisions of FISMA,” dated July 29, 2005
   (http://csrc.nist.gov/sec-cert/PPT/fisma-overview-July29-2005.ppt).
16
    Management controls are the safeguards or countermeasures that focus on the management of risk and the
   management of information system security. Operational controls are the safeguards or countermeasures that
   primarily are implemented and executed by people (as opposed to systems). Technical controls are the safeguards
   or countermeasures that are primarily implemented and executed by the information system through mechanisms
   contained in the hardware, software, or firmware components of the system.



                                                        22
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2006


information system. The results of a security certification are used to reassess the risks and
update the system security plan, thus providing the factual basis for an authorizing official to
render a security accreditation decision. Security certification can include a variety of
assessment methods (e.g., interviewing, inspecting, studying, testing, demonstrating, and
analyzing) and associated assessment procedures depending on the depth and breadth of
assessment required by the agency.

Security accreditation is the official management decision given by a senior agency official to
(1) authorize operation of an information system and (2) explicitly accept the risk to agency
operations, agency assets, or individuals based on the implementation of an agreed-upon set of
security controls. By accrediting an information system, an agency official accepts responsibility
for the information system’s security.

There are three types of accreditation decisions that can be rendered by authorizing officials: (1)
authorization to operate, (2) interim authorization to operate (IATO), and (3) denial of
authorization to operate.

   •   Authorization to Operate – issued if, after assessing the results of the security
       certification, the authorizing official deems that the risk to agency operations, agency
       assets, or individuals is acceptable.
   •   Interim Authorization to Operate – issued if, after assessing the results of the security
       certification, the authorizing official deems that the risk to agency operations, agency
       assets, or individuals is unacceptable, but there is an overarching mission necessity to
       place the information system into operation or continue its operation. An IATO is
       rendered when the security vulnerabilities identified in the information system (resulting
       from deficiencies in the planned or implemented security controls) are significant but can
       be addressed in a timely manner. An IATO provides a limited authorization to operate
       the information system under specific terms and conditions and acknowledges greater
       risk to the agency for a specified period of time. In accordance with OMB policy, an
       information system is not accredited during the period of limited authorization to operate.
       The duration established for an IATO should be commensurate with the risk to agency
       operations, agency assets, or individuals associated with the operation of the information
       system. When the security-related deficiencies have been adequately addressed, the
       IATO should be lifted and the information system authorized to operate.
   •   Denial of Authorization to Operate – issued if, after assessing the results of the security
       certification, the authorizing official deems that the risk to agency operations, agency
       assets, or individuals is unacceptable. The information system is not accredited and
       should not be placed into operation. If the information system is currently operational, all
       activity should be halted.

The FY 2005 FISMA independent evaluation found that the majority of NRC information
systems (19 of 27) were not certified and accredited because (1) the certification and
accreditation had lapsed or was never completed and (2) NRC information systems were being




                                                 23
                                                                                        Independent Evaluation of
                                                                         NRC’s Implementation of FISMA for FY 2006


re-certified and re-accredited using new NIST requirements.17 As a result, potential risks to
agency information systems are unknown. Subsequent to the FY 2005 FISMA independent
evaluation, the former Chairman directed the agency to submit a plan to refocus the agency’s
FISMA program for FY 2006 and to submit a plan for an independent review of NRC’s FISMA
program.

NRC Refocused Information System Security Program

In prior years, the agency allowed current (legacy) systems to operate under an IATO prior to the
completion of certification and accreditation, while concurrently pursuing authority to operate
for new systems. However, OMB has clarified that allowing systems to operate under an IATO
would not be an acceptable approach for the certification and accreditation of systems.

Under the refocused program, the agency will first perform certification and accreditation for
systems that are a high priority from a mission perspective and others that potentially pose a
higher security risk (e.g., agency systems that communicate with systems outside the NRC
network). These high priority systems include legacy financial systems, two new systems, and
infrastructure components supporting these high priority systems. In a December 2005
memorandum to the former Chairman, the agency stated it planned to complete the certification
and accreditation for the high priority systems by the following dates:

     •   Financial systems: second quarter of FY 2006
     •   One of the new systems: third quarter of FY 2006
     •   The other new system: first quarter of FY 2007
     •   Infrastructure components concurrently with the high priority systems

The first phase of the refocused program included the development of a comprehensive
certification and accreditation process, which is not yet finalized. The agency developed
templates for all certification and accreditation documents and instructions for completing the
templates. The updated certification and accreditation process was also integrated into the
agency’s new project management methodology.18 One of the agency’s operational major
applications was chosen to “pilot” the new process and documentation standards, in part, to
ensure the new process is repeatable.

The refocused program has not resulted in the completion of a single certification and
accreditation despite the (1) emphasis on the certification and accreditation of high priority
systems and systems with a higher security risk and (2) application of at least $500,000 in
funding to this initiative since December 2005. In the meantime, the certifications and
accreditations for all but one of the agency’s operational systems have expired. This results in

17
    NRC information systems are being re-certified and re-accredited in accordance with the minimum security
   controls for information systems defined in NIST SP 800-53, Recommended Security Controls for Federal
   Information Systems.
18
    The agency’s project management methodology is currently in concurrence. The FY 2006 FISMA independent
   evaluation did not include a review of the new templates, their instructions, or the incorporation of the new
   certification and accreditation process into the agency’s project management methodology. The completion of
   these activities will be evaluated when they have been finalized and reported as completed to the OIG.



                                                        24
                                                                                              Independent Evaluation of
                                                                               NRC’s Implementation of FISMA for FY 2006


only 1 of the agency’s 30 operational systems having a current certification and accreditation,
and that certification and accreditation expires in October 2006. As of September 1, 2006, the
current target completion dates for certification and accreditation of the high priority systems,
and the “pilot,” are as follows:19

       •    “Pilot” system: March 2007
       •    Financial systems: first quarter of FY 2007
       •    The two new systems: end of FY 2007
       •    General support system supporting one of the new systems: first quarter FY 2007
       •    Infrastructure components supporting high priority systems: second quarter FY 2007 and
            first quarter FY 2008
       •    Remaining agency operational systems by FY 2009

The FY 2005 FISMA independent evaluation made two recommendations to address the lack of
certified and accredited systems; however, the agency is still in the process of implementing
those recommendations. According to the agency, the current target date for completing the two
recommendations concerning the agency’s certification and accreditation process is December
29, 2006.

As stated previously, the fact that only 1 of the 30 operational NRC information systems has a
current certification and accreditation, and that only 4 of the 12 systems used or operated by a
contractor or other organization on behalf of the agency have a current certification and
accreditation, constitutes a significant deficiency.

Independent Review of NRC’s Information System Security Program

At the request of the former Chairman, the agency has engaged outside expertise to perform an
independent review of the adequacy of the agency’s internal processes used to provide security
to its information systems. NRC selected the Carnegie Mellon University’s Software
Engineering Institute to perform the independent review. The evaluation consists of three
phases:

       •    Evaluate the agency’s implementation of the certification and accreditation process.
       •    Perform a needs analysis of the capabilities of the NRC information system security
            program.
       •    Benchmark the agency’s certification and accreditation process against similarly-sized
            regulatory and comparable agencies.

The final reports are scheduled for release during the first quarter FY 2007.




19
      The agency stated in their formal written comments that the certifications and accreditations of the six systems
     that are of highest mission priority will be completed by the end of January 2007.



                                                             25
                                                                                Independent Evaluation of
                                                                 NRC’s Implementation of FISMA for FY 2006


Issuance of Interim Approvals to Operate Is Not Consistent With NIST Guidance

As stated previously, there are three types of accreditation decisions that can be rendered by
authorizing officials: (1) authorization to operate, (2) interim authorization to operate, and (3)
denial of authorization to operate.

A full and complete certification and accreditation package is necessary for an authorizing
official to render an accreditation decision. A complete certification and accreditation includes a
security plan (which includes or references a risk assessment), a security assessment report, and a
POA&M.

NRC bases the decision to issue an IATO on the submission of the following documents:

   •   NRC Form 616 – Notification of Electronic Information System Design or Modification
   •   NRC Form 637 – NRC Electronic Information System Records Scheduling Survey
   •   Privacy Impact Assessment
   •   e-Authentication Risk Assessment
   •   Security Categorization

Issuance of an IATO based on the submission of these documents is inconsistent with NIST
guidance. None of these documents describe the actual risks that exist in the systems or identify
threats and vulnerabilities that could expose the agency’s information and information systems to
an unacceptable level of risk. This information is necessary for the authorizing official to
determine whether the risk to agency operations, agency assets, or individuals, based on the
implementation of an agreed-upon set of security controls for these systems, is acceptable.

The following is a summary of some of the agency’s systems that are currently operating under
an IATO.

   •   Five systems’ last certification and accreditation expired almost a year ago.
   •   Five systems’ last certification and accreditation expired more than 1 year ago.
   •   One system’s last certification and accreditation expired almost 2 years ago.
   •   Seven general support systems were identified when the LAN/WAN was divided into
       several general support systems. There is insufficient documentation to determine
       whether these systems are fully covered by the previous LAN/WAN certification and
       accreditation.
   •   Three systems have never had a complete certification and accreditation, as they are new
       general support systems identified when the LAN/WAN was divided into several general
       support systems. There is insufficient documentation to determine whether these systems
       are covered by the previous LAN/WAN certification and accreditation.
   •   Four systems have never had a complete certification and accreditation, but have a
       security plan and/or risk assessment.
   •   Four agency systems and two contractor systems have never had a complete certification
       and accreditation and do not have at least a security plan and risk assessment.


                                                  26
                                                                                           Independent Evaluation of
                                                                            NRC’s Implementation of FISMA for FY 2006




The agency may have some understanding of the threats, vulnerabilities, and risks associated
with the systems operating under an IATO that have (1) an expired certification and
accreditation, (2) a risk assessment, or (3) a security plan. However, these documents are now
outdated. As noted above, there are several systems operating under an IATO that have never
had a risk assessment and do not have a security plan. For these systems, the authorizing official
cannot make an informed decision regarding whether or not the risk to agency operations,
agency assets, or individuals is acceptable.

As stated previously, the Software Engineering Institute is currently evaluating the agency’s
certification and accreditation process. The failure to follow NIST guidance when issuing an
IATO is one of their preliminary findings.

Agency Funding of New Investments is Inconsistent With OMB Guidance

OMB memoranda M-06-19, Reporting Incidents Involving Personally Identifiable Information
and Incorporating the Cost for Security in Agency Information Technology Investments, and M-
06-20 reminded agencies that (1) they must integrate security into and fund security over the
lifecycle of each system undergoing development, modernization, or enhancement, and (2) the
operations of legacy (steady-state) system operations must meet existing security requirements
before new funds are spent on systems development, modernization or enhancement. As an
example of this policy in practice, if an agency has a legacy system not currently certified and
accredited or for which a contingency plan has not been tested, these actions must be completed
before spending funds on a new system.

As stated previously, only one of the agency’s legacy systems has a current certification and
accreditation, and only three agency systems had their contingency plans tested this year.
However, the agency is spending new funds on systems development for several new systems.
The following is an example of funds the agency has spent on new systems development.20

       •    Pilot system for electronically storing, processing, and transmitting the agency’s
            safeguards records – $1,374,000

3.8         Security Configuration Policy

                                  OMB Requirement                                             OIG Response
 6.a. Is there an agency wide security configuration policy?                            Yes
 6.b. Are configuration guides available for the products listed in the                 Yes
 FY 2006 FISMA Reporting Template?

The agency has implemented several policies that address security configurations and their
implementation. In May 2003, the agency developed the NRC System Security Baseline
Implementation Plan. Its objective was to establish, develop, implement, maintain, and verify

20
     Dollar figures were obtained from the FY 2007 Exhibit 53 as of January 2006. Dollar figures represent total funds
     expended through FY 2005.



                                                           27
                                                                             Independent Evaluation of
                                                              NRC’s Implementation of FISMA for FY 2006


secure baseline configurations for all information systems. The NRC program is primarily based
on the Center for Internet Security’s benchmarks and scoring tools. NRC personnel compiled
and researched recommended “best practice” technical settings and actions and developed “in
house” benchmarks for those platforms for which a benchmark has yet to be developed. The
following platforms were the focus of the initiative:

   •   Microsoft NT
   •   Microsoft Windows 2000
   •   Novell NetWare
   •   Sun Solaris
   •   IBM AIX
   •   Linux

The scope of the plan is all NRC systems running the operating systems listed above and
includes all systems that are currently in an “active” state and components of the primary NRC
network. Subsequent to the implementation of the System Security Baseline Implementation
Plan, the agency has begun using the following additional benchmarks and configuration guides.

   •   Windows 2003 Domain Controllers and Member Servers (Center for Internet Security)
   •   Microsoft Internet Information Server (National Security Agency)
   •   Microsoft SQL Server (National Security Agency)
   •   Router security configuration guide (National Security Agency)
   •   Cisco router Internet operating system (Center for Internet Security)
   •   Cisco PIX firewall (Center for Internet Security)
   •   Apache (Center for Internet Security)
   •   Oracle (Center for Internet Security)
   •   Sybase Adaptive Server Enterprise Scoring Tool (NRC developed)

The agency has also posted requirements on the NRC internal IT security Web page for the use
of hardening specifications developed by the Center for Internet Security for all systems using
the Red Hat Linux operating system. All deviations from the specification must be justified.
Areas where the specification says “if absolutely necessary,” require justification of the
“absolutely necessary” use of the feature. The same applies to the “disable if possible” areas
(justify not disabling).

Oracle is currently not in production, but is being tested for planned future production use.
Apache is found in the production environment only as a customized version that is bundled with
the list manager for the Web interface. Hardening guidelines for the Microsoft Internet
Information Server are included with the Windows 2000/2003 configuration guides. HP-UX is
found in the production environment, but it is not in widespread use and there is no baseline.

For desktops, NRC has developed a standard image for Windows XP that is based on NIST best
practices. NRC uses PatchLink to keep desktop configurations consistent across NRC.


                                               28
                                                                                       Independent Evaluation of
                                                                        NRC’s Implementation of FISMA for FY 2006


LANDesk can also be used to push upgrades to the desktops. NRC Announcements21 are used to
announce agency workstation updates. The announcements describe the nature of the upgrade
and that it will occur via an automated procedure during network login. The announcement
includes, as an attachment, the upgrade schedule for each NRC office.

The Office of Information Services also provides the Defense Information Systems Agency Gold
Disk tool for the following Windows platforms:

      •   Windows Server 2003 Member Server
      •   Windows 2003 Domain Controller
      •   Windows XP Professional
      •   Windows 2000 Professional
      •   Windows 2000 Member Server
      •   Windows Domain Controller

NRC has also developed system security screening guidelines to prepare new systems for
implementation into the NRC production operating environment. The security screening ensures
that the system configuration meets NRC network security requirements. The guidelines outline
the steps necessary to request and perform the security screening process, provide guidance on
managing and developing a secure system, and list industry best practices and additional
resources.

3.9       Incident Detection and Handling Procedures

                              OMB Requirement                                            OIG Response
 7.a. The agency follows documented policies and procedures for                    Yes
 identifying and reporting incidents internally.
 7.b. The agency follows documented policies and procedures for                    Yes
 external reporting to law enforcement authorities.
 7.c. The agency follows defined procedures for reporting to the                   Yes
 United States Computer Emergency Readiness Team (US-CERT).

Management Directive and Handbook 12.5, NRC Automated Information Systems Security
Program, Appendix B, formalizes the agency’s procedures for monitoring, detecting, reporting,
and responding to information systems security incidents. It also provides the requirements and
procedures for reporting incidents internally, externally to law enforcement agencies/officials,
and to US-CERT.22 The most current version of the incident response procedures are maintained
on the agency’s IT Web site.


21
    NRC Announcements (formerly Network Announcements) communicate information of major significance or
   interest to agency employees, as well as urgent or time-sensitive information. These announcements do not
   require signature.
22
    The procedures actually reference reporting to the Federal Computer Incident Response Center, which was
   replaced with the US-CERT when the Department of Homeland Security was established.



                                                       29
                                                                                            Independent Evaluation of
                                                                             NRC’s Implementation of FISMA for FY 2006


The Management Directive defines the roles and responsibilities for reporting and responding to
information system security incidents. When criminal activity is suspected or confirmed, the
procedures assign the OIG responsibility for contacting and coordinating the response with law
enforcement officials.

3.10        Security Awareness and Training

                                  OMB Requirement                                             OIG Response
 8. Has the agency ensured security training and awareness of all                       Mostly, or
 employees, including contractors and those employees with                              approximately 81-95%
 significant IT security responsibilities?                                              of employees have
                                                                                        sufficient training
 9. Does the agency explain policies regarding peer-to-peer file                        Yes
 sharing in IT security awareness training, ethics training, or any
 other agency wide training?

All new NRC employees (including contractors, interns, and summer hires) are required to
attend orientation the first day they report for duty. During the orientation, a member of the
NRC Computer Security Team gives a brief presentation, which includes a discussion on
appropriate use of information technology equipment. In addition, a member of the Office of the
General Counsel presents a section on ethics that includes additional discussions on appropriate
use of the Internet.

All employees, including contractors, are required to take the online NRC Computer Security
Awareness course as soon as they receive a network UserID and every year thereafter. The
Office of Information Services maintains a database of personnel who have taken the security
awareness course and cross checks the list on a regular basis with an employee list provided by
the NRC Office of Human Resources. A Computer Security Team member sends a message to
NRC office directors and regional administrators around the first of the month reminding them to
have their employees take the course. Information system security officers must sign an
acknowledgement of their responsibilities when taking the position and are required to take an
online Information System Security Officer training course in addition to the online NRC
Computer Security Awareness course. NRC also provides an information systems security
course for system administrators.

NRC meets the Office of Personnel Management requirement to expose employees to security
awareness materials at least annually by (1) mandating all NRC staff take the NRC Computer
Security Awareness course annually and by documenting who takes the training, (2) using
posters, flyers, Web pages, NRC Yellow Announcements,23 NRC Announcements, and
articles/notices in the NRC monthly newsletter to keep computer security on everyone’s mind
throughout the year, and (3) holding an Annual NRC Computer Security Awareness Day event.

23
      NRC Yellow Announcements (formerly Yellow Announcements) establish new policies, practices, or procedures;
     introduce changes in policy, senior staff assignments, or organization; or address major agencywide events. These
     announcements require signature and are retained as permanent records in the agency’s document management
     system.



                                                           30
                                                                                 Independent Evaluation of
                                                                  NRC’s Implementation of FISMA for FY 2006




The agency is in the process of developing a computer security awareness and training program
plan to fully implement the requirements outlined in OMB Circular A-130, Appendix III;
FISMA; Management Directive and Handbook 12.5; and the Office of Personnel Management’s
final regulations concerning information technology security awareness.

Agency staff and contractors are advised of the dangers of peer-to-peer applications during their
annual Web-based security training. The online Computer Security Awareness course includes a
discussion of the dangers of peer-to-peer applications such as instant messaging. Current agency
policy does not explicitly prohibit peer-to-peer applications; however, the agency is blocking
sites that support the unauthorized reproduction of copyrighted material, i.e., peer-to-peer and
file sharing Web sites.

FINDING J – Agency Lacks Procedures for Ensuring Employees With Significant IT
Security Responsibilities Receive Security Training (Repeat Finding)

The FY 2005 FISMA independent evaluation found that the agency had difficulty in gathering
the information needed to report on (1) the total number of employees with significant IT
security responsibilities, (2) the number of those employees who have received specialized
training, and (3) the total costs for providing IT training. The agency’s training system does not
identify which employees have significant IT security responsibilities and what courses are
considered related to IT security. The agency’s training system also does not account for any
training the employees may have taken on their own time.

The agency is working with NRC offices to identify employees and contractors with significant
IT security responsibilities. The agency is also developing procedures for ensuring staff with
significant IT security responsibilities are identified, receive security training, and the individual
and associated training are properly documented and readily identifiable. According to the
agency, the current target date for completing the recommendation concerning security training
for employees and contractors with significant IT security responsibilities is August 31, 2008.




                                                  31
                                            Independent Evaluation of
                             NRC’s Implementation of FISMA for FY 2006




[Page intentionally left blank]




              32
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2006


4       Consolidated List of Recommendations

The Office of the Inspector General recommends that the Executive Director for Operations:

    1. Clearly identify the additional controls that are the responsibility of a high-impact system
       when a general support system categorized as having moderate-impact supports a high-
       impact system.
    2. Re-categorize the Network Continuity of Operations listed system as a general support
       system.
    3. Re-evaluate the procedures developed for identifying weaknesses to be tracked to ensure
       all known security weaknesses are reported on the POA&Ms.

The following are recommendations from FY 2005 that still remain open that correspond to the
repeat findings. These recommendations can be found in OIG-05-A-21, Independent Evaluation
of NRC’s Implementation of FISMA for Fiscal Year 2005.

    •   Categorize all NRC information systems, including systems operated by a contractor or
        other organization on behalf of the agency, in accordance with FIPS 199.
        (Recommendation #1)
    •   Develop and implement procedures to ensure contingency plans are tested annually,
        regardless of the status of the systems’ certification and accreditation. (Recommendation
        #3)
    •   Maintain current copies of certification and accreditation memoranda for systems
        provided by other Federal agencies. (Recommendation #4)
    •   Maintain current copies of self-assessments for systems provided by other Federal
        agencies. (Recommendation #5)
    •   Maintain current copies of annual contingency plan testing results for systems provided
        by other Federal agencies. (Recommendation #6)
    •   Develop and implement procedures for performing oversight of major applications and
        general support systems operated by a contractor or other organization on behalf of the
        agency. (Recommendation #7)
    •   Review and update the six completed e-authentication risk assessments to correct
        inaccuracies and inconsistencies with FIPS 199 security categorizations.
        (Recommendation #8)
    •   Develop and implement a plan for completing the remaining e-authentication risk
        assessments. (Recommendation #9)
    •   Develop and implement procedures for ensuring employees and contractors with
        significant IT security responsibilities are identified, receive security awareness and
        training, and the individual and associated training are readily identifiable.
        (Recommendation #10)




                                                33
                                                                           Independent Evaluation of
                                                            NRC’s Implementation of FISMA for FY 2006


5      OIG Response to Agency Comments

At an exit conference with the agency held on September 26, 2006, the agency provided informal
written comments and generally agreed with the report recommendations. Where appropriate,
the OIG modified the report in response to these comments. On September 28, 2006, the agency
provided formal written comments, which can be found in Appendix D.




                                              34
                                                                 Appendix A – Scope and Methodology
                                                                            Independent Evaluation of
                                                            NRC’s Implementation of FISMA for FY 2006

SCOPE AND METHODOLOGY

Carson Associates performed an independent evaluation of NRC’s Implementation of FISMA
for FY 2006. To conduct the independent evaluation, the team met with agency staff responsible
for implementing the agency’ information system security program, reviewed certification and
documentation for the agency’s operational information systems, and reviewed other
documentation provided by the agency that demonstrated their implementation of FISMA.

All analyses were performed in accordance with guidance from the following:

   •   National Institute of Standards and Technology standards and guidelines
   •   Nuclear Regulatory Commission Management Directive and Handbook 12.5, NRC
       Automated Information Systems Security Program
   •   NRC Office of the Inspector General audit guidance

This work was conducted between March 2006 and August 2006. Fieldwork ended August 31,
2006. Any information received from the agency subsequent to the completion of fieldwork was
incorporated when possible. The work was conducted by Jane M. Laroussi, CISSP; Kelby M.
Funn, CISA; and Omar Chaudhry, from Richard S. Carson and Associates, Inc.




                                              35
                                  Appendix A – Scope and Methodology
                                             Independent Evaluation of
                             NRC’s Implementation of FISMA for FY 2006




[Page intentionally left blank]




              36
                                                          Appendix B – Status of Contingency Plan Testing
                                                                                Independent Evaluation of
                                                              NRC’s Implementation of FISMA for FY 2006

STATUS OF CONTINGENCY PLAN TESTING

The following information on the status of contingency plan testing was obtained from the 3rd
Quarter FY 2006 POA&Ms submitted by the agency to OMB and from working papers from the
FY 2005 FISMA independent evaluation. This information is for the 30 operational agency
systems as well as for one contractor system.

                      Table B-1. Status of Contingency Plan Testing
                         Last CP Test      Scheduled Test
        System                                                                Comment
                             Date              Date
 3-Tier Web            Never tested       Not scheduled         System was put into production
                                                                without a certification and
                                                                accreditation. There is no 3rd
                                                                Quarter FY 2006 POA&M for
                                                                the system.
 ADAMS                 August 16, 2004    August 2006
 CTF                   June 29, 2004      March 2008            Last test was “inherited” from
                                                                LAN/WAN.
 DCS                   April 29, 2004     September 2006        POA&M states testing was
                                                                completed June 1, 2004.
 DDMS                  Week of May        Not scheduled
                       15, 2006
 Desktops              June 29, 2004      June 2008             Last test was “inherited” from
                                                                LAN/WAN.
 E-mail                June 29, 2004      December 2008         Last test was “inherited” from
                                                                LAN/WAN.
 EHD                   Never tested       October 2006
 EIE                   April 6, 2006      Not scheduled         Agency has not reviewed/
                                                                approved test results.
 ERDS                  May 24, 2004       December 2007         POA&M states testing was
                                                                completed June 1, 2004.
 FEES                  August 24, 2006    Not scheduled
 GLTS                  May 13, 2004       Task order date       The system owner will set an
                                          + 7.5 months          actual date upon award of a task
                                                                order under the new information
                                                                system security program
                                                                contract.
 HPCS-CDS              Never tested       N/A                   Planned transition to listed
                                                                system by July 30, 2006. As of
                                                                September 1, 2006, the
                                                                transition had not occurred.



                                             37
                                                   Appendix B – Status of Contingency Plan Testing
                                                                         Independent Evaluation of
                                                       NRC’s Implementation of FISMA for FY 2006


                   Last CP Test     Scheduled Test
       System                                                          Comment
                       Date             Date
HPCS-CFD         Never tested      N/A                   Planned transition to listed
                                                         system by July 30, 2006. As of
                                                         September 1, 2006, the
                                                         transition had not occurred.
HRMS             August 21, 2006   Not scheduled
IDS              June 29, 2004     January 2007          Last test was “inherited” from
                                                         LAN/WAN.
IPSS             July 25, 2003     June 2007
LAN/WAN          May 10 and        September 2006        Test report is dated May 23,
                 May 11, 2005                            2005.
LSN              April 27-28,      Not scheduled         This is a contractor system.
                 2006
LTS              May 18, 2004      Waiting for           Was to be retired by September
                                   contract award to     30, 2005. As of September 1,
                                   set date, original    2006, the system had not been
                                   date was June 1,      retired.
                                   2006
MPKI             June 29, 2004     September 2006        Last test was “inherited” from
                                                         LAN/WAN.
Novell Servers   June 29, 2004     November 2007         Last test was “inherited” from
                                                         LAN/WAN.
NSICD            Never tested      Not scheduled         This is a new system. There is
                                                         no 3rd Quarter FY 2006
                                                         POA&M for the system.
OCIMS            May 24, 2004      July 2006             POA&M states testing was
                                                         completed September 8, 2004.
RAS              March 27, 2004    Not scheduled         This is another general support
                                                         system that was broken out
                                                         from the LAN/WAN. There is
                                                         no 3rd Quarter FY 2006
                                                         POA&M for the system.
                                                         According to the agency, it was
                                                         included with the continuity of
                                                         operations testing performed in
                                                         March 2004.
RPS              June 28, 2006     Not scheduled         Agency has not reviewed/
                                                         approved test results.




                                       38
                                                       Appendix B – Status of Contingency Plan Testing
                                                                             Independent Evaluation of
                                                           NRC’s Implementation of FISMA for FY 2006


                      Last CP Test      Scheduled Test
       System                                                              Comment
                          Date              Date
TAC                 June 24, 2005       N/A                  Planned transition to listed
                                                             system (once HPCS moves to
                                                             the production operating
                                                             environment).
Telecommunications April 29, 2004       November 30,         Combined DCS/Telecomm
                                        2006                 POA&M states testing was
                                                             completed June 1, 2004. This is
                                                             a general support system that
                                                             was broken out from the old
                                                             Data Center/
                                                             Telecommunications general
                                                             support system. There is no 3rd
                                                             Quarter FY 2006 POA&M for
                                                             the system.
Unix Servers        Insufficient        June 1, 2006         This is another general support
                    documentation       (delayed,            system that was broken out
                    to determine        completion date      from the LAN/WAN.
                    whether covered     to be
                    by previous tests   determined)
Web Servers         Insufficient        June 1, 2006         This is another general support
                    documentation       (delayed,            system that was broken out
                    to determine        completion date      from the LAN/WAN.
                    whether covered     to be
                    by previous tests   determined)
Windows Servers     June 29, 2004       May 2008             Last test was “inherited” from
                                                             LAN/WAN.

ADAMS             Agencywide Document Access and Management System
CTF               Consolidated Test Facility
DCS               Data Center Services
DDMS              Digital Data Management System
EHD               Electronic Hearing Docket
EIE               Electronic Information Exchange
ERDS              Emergency Response Data System
FEES              License Fee Reporting System
GLTS              General License Tracking System
HPCS-CDS          High Performance Computing System – Code Development System
HPCS-CFD          High Performance Computing System – Computational Fluid Dynamics
                  System
HRMS              Human Resources Management System


                                           39
                                          Appendix B – Status of Contingency Plan Testing
                                                                Independent Evaluation of
                                              NRC’s Implementation of FISMA for FY 2006

IDS       Intrusion Detection Systems
IPSS      Integrated Personnel Security System
LAN/WAN   Local Area Network/Wide Area Network
LSN       Licensing Support Network
LTS       License Tracking System
MPKI      Managed Public Key Infrastructure
NSICD     NRC Systems Inventory and Configuration Database
OCIMS     Operations Center Information Management System
RAS       Remote Access System
RPS       Reactor Program System
TAC       Technology Assessment Center




                                40
                                                                                                      Appendix C – FY 2006 OMB FISMA Reporting Template for Agency IGs
                                                                                                                                             Independent Evaluation of
                                                                                                                             NRC’s Implementation of FISMA for FY 2006

FY 2006 OMB FISMA REPORTING TEMPLATE FOR AGENCY IGs

This appendix contains the FY 2006 OMB FISMA Reporting Template for Agency IGs and the
additional narrative that will be included with the agency’s FISMA submission to OMB.

                                                                                        Section C: Inspector General. Questions 1, 2, 3, 4, and 5.

                                                                                             Agency Name: Nuclear Regulatory Commission

                                                                                                              Question 1 and 2

1. As required in FISMA, the IG shall evaluate a representative subset of systems, including information systems used or operated by an agency or by a contractor of an agency or other organization on behalf of an
agency. By FIPS 199 risk impact level (high, moderate, low, or not categorized) and by bureau, identify the number of systems reviewed in this evaluation for each classification below (a., b., and c.).


            To meet the requirement for conducting a NIST Special Publication 800-26 review, agencies can:
            1) Continue to use NIST Special Publication 800-26, or,
            2) Conduct a self-assessment against the controls found in NIST Special Publication 800-53

            Agencies are responsible for ensuring the security of information systems used by a contractor of their agency or other organization on behalf of their agency, therefore, self reporting by contractors does not meet the
            requirements of law. Self reporting by another Federal agency, for example, a Federal service provider, may be sufficient. Agencies and service providers have a shared responsibility for FISMA compliance.


2. For each part of this question, identify actual performance over the past fiscal year by risk impact level and bureau, in the format provided below. From the representative subset of systems evaluated, identify the
number of systems which have completed the following: have a current certification and accreditation, a contingency plan tested within the past year, and security controls tested within the past year.

                                                                                                  Question 1                                                                                Question 2
                                                                        a.                           b.                             c.                              a.                         b.                         c.
                                                                  Agency Systems             Contractor Systems           Total Number of Systems         Number of systems         Number of systems for Number of systems for which
                                                                                                                                                        certified and accredited    which security controls contingency plans have been
                                                                                                                                                                                     have been tested and     tested in accordance with
                                                                                                                                                                                   evaluated in the last year    policy and guidance


                                    FIPS 199 Risk Impact        Total         Number          Total        Number                        Number          Total       Percent of      Total        Percent of
Bureau Name                                 Level              Number        Reviewed        Number       Reviewed       Total Number   Reviewed        Number         Total        Number          Total       Total Number Percent of Total
NRC                                   High                               3               0           0               0              3               0            0          0.0%             3           0.0%                0           0.0%
                                      Moderate                           8               0           0               0              8               0            0          0.0%             8           0.0%                3           0.0%
                                      Low                                0               0           1               0              1               0            0          0.0%             1           0.0%                1           0.0%
                                      Not Categorized                   19               0          11               0             30               0            5          0.0%            21           0.0%                0           0.0%
                                   Sub-total                            30               0          12               0             42               0            5          0.0%            33           0.0%                4           0.0%
Bureau                                High                                                                                          0               0                       0.0%                         0.0%                            0.0%
                                      Moderate                                                                                      0               0                       0.0%                         0.0%                            0.0%
                                      Low                                                                                           0               0                       0.0%                         0.0%                            0.0%
                                      Not Categorized                                                                               0               0                       0.0%                         0.0%                            0.0%
                                   Sub-total                             0               0            0              0              0               0            0          0.0%             0           0.0%                0           0.0%
Bureau                                High                                                                                          0               0                       0.0%                         0.0%                            0.0%
                                      Moderate                                                                                      0               0                       0.0%                         0.0%                            0.0%
                                      Low                                                                                           0               0                       0.0%                         0.0%                            0.0%
                                      Not Categorized                                                                               0               0                       0.0%                         0.0%                            0.0%
                                   Sub-total                             0               0            0              0              0               0            0          0.0%             0           0.0%                0           0.0%
Bureau                                High                                                                                          0               0                       0.0%                         0.0%                            0.0%
                                      Moderate                                                                                      0               0                       0.0%                         0.0%                            0.0%
                                      Low                                                                                           0               0                       0.0%                         0.0%                            0.0%
                                      Not Categorized                                                                               0               0                       0.0%                         0.0%                            0.0%
                                   Sub-total                             0               0            0              0              0               0            0          0.0%             0           0.0%                0           0.0%
Bureau                                High                                                                                          0               0                       0.0%                         0.0%                            0.0%
                                      Moderate                                                                                      0               0                       0.0%                         0.0%                            0.0%
                                      Low                                                                                           0               0                       0.0%                         0.0%                            0.0%
                                      Not Categorized                                                                               0               0                       0.0%                         0.0%                            0.0%
                                   Sub-total                             0               0            0              0              0               0            0          0.0%             0           0.0%                0           0.0%
Bureau                                High                                                                                          0               0                       0.0%                         0.0%                            0.0%
                                      Moderate                                                                                      0               0                       0.0%                         0.0%                            0.0%
                                      Low                                                                                           0               0                       0.0%                         0.0%                            0.0%
                                      Not Categorized                                                                               0               0                       0.0%                         0.0%                            0.0%
                                   Sub-total                             0               0            0              0              0               0            0          0.0%             0           0.0%                0           0.0%
Bureau                                High                                                                                          0               0                       0.0%                         0.0%                            0.0%
                                      Moderate                                                                                      0               0                       0.0%                         0.0%                            0.0%
                                      Low                                                                                           0               0                       0.0%                         0.0%                            0.0%
                                      Not Categorized                                                                               0               0                       0.0%                         0.0%                            0.0%
                                   Sub-total                             0               0            0              0              0               0            0          0.0%             0           0.0%                0           0.0%
Bureau                                High                                                                                          0               0                       0.0%                         0.0%                            0.0%
                                      Moderate                                                                                      0               0                       0.0%                         0.0%                            0.0%
                                      Low                                                                                           0               0                       0.0%                         0.0%                            0.0%
                                      Not Categorized                                                                               0               0                       0.0%                         0.0%                            0.0%
                                   Sub-total                             0               0            0              0              0               0            0          0.0%             0           0.0%                0           0.0%
Agency Totals                          High                              3               0            0              0              3               0            0          0.0%             3           0.0%                0           0.0%
                                      Moderate                           8               0           0               0              8               0            0          0.0%             8           0.0%                3           0.0%
                                      Low                                0               0           1               0              1               0            0          0.0%             1           0.0%                1           0.0%
                                      Not Categorized                   19               0          11               0             30               0            5          0.0%            21           0.0%                0           0.0%
                                   Total                                30               0          12               0             42               0            5          0.0%            33           0.0%                4           0.0%




                                                                                                                     41
                                                                                                        Appendix C – FY 2006 OMB FISMA Reporting Template for Agency IGs
                                                                                                                                               Independent Evaluation of
                                                                                                                               NRC’s Implementation of FISMA for FY 2006

                                                                                                                    Question 3

In the format below, evaluate the agency’s oversight of contractor systems, and agency system inventory.

                                    The agency performs oversight and evaluation to ensure information systems used or operated by a contractor of the
                                    agency or other organization on behalf of the agency meet the requirements of FISMA, OMB policy and NIST guidelines,
                                    national security policy, and agency policy. Self-reporting of NIST Special Publication 800-26 and/or NIST 800-53
                                    requirements by a contractor or other organization is not sufficient, however, self-reporting by another Federal agency may
                                    be sufficient.
                 3.a.                                                                                                                                              - Mostly, for example, approximately 81-95% of the time
                                    Response Categories:
                                         - Rarely, for example, approximately 0-50% of the time
                                         - Sometimes, for example, approximately 51-70% of the time
                                         - Frequently, for example, approximately 71-80% of the time
                                         - Mostly, for example, approximately 81-95% of the time
                                         - Almost Always, for example, approximately 96-100% of the time


                                    The agency has developed an inventory of major information systems (including major national security systems) operated
                                    by or under the control of such agency, including an identification of the interfaces between each such system and all other
                                    systems or networks, including those not operated by or under the control of the agency.

                                    Response Categories:
                3.b.1.                                                                                                                                                  - Approximately 51-70% complete
                                         - Approximately 0-50% complete
                                         - Approximately 51-70% complete
                                         - Approximately 71-80% complete
                                         - Approximately 81-95% complete
                                         - Approximately 96-100% complete

                                                                                                                                                                   Missing Agency Systems: Network Continuity of Operations

                                    If the Agency IG does not evaluate the Agency's inventory as 96-100% complete, please list the systems that are missing
                3.b.2.
                                    from the inventory.                                                                                                            Missing Contractor Systems:



                 3.c.               The OIG generally agrees with the CIO on the number of agency owned systems.                                                                                      Yes


                                    The OIG generally agrees with the CIO on the number of information systems used or operated by a contractor of the
                 3.d.                                                                                                                                                                                 Yes
                                    agency or other organization on behalf of the agency.


                 3.e.               The agency inventory is maintained and updated at least annually.                                                                                                 Yes


                 3.f.               The agency has completed system e-authentication risk assessments.                                                                                                No

                                                                                                                    Question 4

Through this question, and in the format provided below, assess whether the agency has developed, implemented, and is managing an agency wide plan of action and milestone (POA&M) process. Evaluate the degree to which the
following statements reflect the status in your agency by choosing from the responses provided in the drop down menu. If appropriate or necessary, include comments in the area provided below.

For items 4a.-4.f, the response categories are as follows:

      -   Rarely, for example, approximately 0-50% of the time
      -   Sometimes, for example, approximately 51-70% of the time
      -   Frequently, for example, approximately 71-80% of the time
      -   Mostly, for example, approximately 81-95% of the time
      -   Almost Always, for example, approximately 96-100% of the time


                                    The POA&M is an agency wide process, incorporating all known IT security weaknesses associated with information
                 4.a.                                                                                                                                              - Almost Always, for example, approximately 96-100% of the time
                                    systems used or operated by the agency or by a contractor of the agency or other organization on behalf of the agency.



                                    When an IT security weakness is identified, program officials (including CIOs, if they own or operate a system) develop,
                 4.b.                                                                                                                                              - Almost Always, for example, approximately 96-100% of the time
                                    implement, and manage POA&Ms for their system(s).



                                    Program officials, including contractors, report to the CIO on a regular basis (at least quarterly) on their remediation
                 4.c.                                                                                                                                              - Almost Always, for example, approximately 96-100% of the time
                                    progress.


                 4.d.               CIO centrally tracks, maintains, and reviews POA&M activities on at least a quarterly basis.                                   - Almost Always, for example, approximately 96-100% of the time


                 4.e.               OIG findings are incorporated into the POA&M process.                                                                          - Almost Always, for example, approximately 96-100% of the time


                                    POA&M process prioritizes IT security weaknesses to help ensure significant IT security weaknesses are addressed in a
                 4.f.                                                                                                                                              - Almost Always, for example, approximately 96-100% of the time
                                    timely manner and receive appropriate resources

Comments: NRC has two primary tools for tracking IT security weaknesses. At a high level, NRC uses the POA&Ms submitted to OMB to track (1) corrective actions from the OIG annual independent evaluation, (2) corrective actions from
the agency’s annual review, and (3) recurring FISMA and IT security action items such as annual self-assessments, and annual contingency plan testing. The POA&Ms may also include corrective actions resulting from other security
studies conducted by or on behalf of NRC. At a more detailed level, NRC uses an internal system to track the progress of more specific corrective actions. These include corrective actions resulting from activities associated with the
certification and accreditation process (e.g., risk assessment, security test and evaluation).




                                                                                                                       42
                                                                                                      Appendix C – FY 2006 OMB FISMA Reporting Template for Agency IGs
                                                                                                                                             Independent Evaluation of
                                                                                                                             NRC’s Implementation of FISMA for FY 2006

                                                                                                                  Question 5

OIG Assessment of the Certification and Accreditation Process. OMB is requesting IGs to provide a qualitative assessment of the agency’s certification and accreditation process, including adherence to existing policy, guidance, and
standards. Agencies shall follow NIST Special Publication 800-37, “Guide for the Security Certification and Accreditation of Federal Information Systems” (May, 2004) for certification and accreditation work initiated after May, 2004. This
includes use of the FIPS 199 (February, 2004), “Standards for Security Categorization of Federal Information and Information Systems,” to determine an impact level, as well as associated NIST documents used as guidance for completing
risk assessments and security plans.

                                    Assess the overall quality of the Department's certification and accreditation process.

                                    Response Categories:
                                         - Excellent
                                                                                                                                                                 - Failing
                                         - Good
                                         - Satisfactory
                                         - Poor
                                         - Failing

Comments: See attached narrative, page 4.




                                                                                                                      43
                                                                                       Appendix C – FY 2006 OMB FISMA Reporting Template for Agency IGs
                                                                                                                              Independent Evaluation of
                                                                                                              NRC’s Implementation of FISMA for FY 2006

                                                                    Section C: Inspector General. Questions 1, 2, 3, 4, and 5.

                                                                         Agency Name: Nuclear Regulatory Commission

                                                                                           Question 6

                        Is there an agency wide security configuration policy?
       6.a.                                                                                                                                                  Yes
                        Yes or No.
                        Comments:



                        Configuration guides are available for the products listed below. Identify which software is addressed in the agency wide security configuration policy.
       6.b.             Indicate whether or not any agency systems run the software. In addition, approximate the extent of implementation of the security configuration policy on
                        the systems running the software.


                                                                                                                                 Approximate the extent of implementation of the security
                                                                                                                                 configuration policy on the systems running the software.

                                                                                                                                 Response choices include:
                                                                                                                                 - Rarely, or, on approximately 0-50% of the
                                                                                                                                   systems running this software
                                                                                                                                 - Sometimes, or on approximately 51-70% of
          Product
                                                                                                                                   the systems running this software
                                                                                                                                 - Frequently, or on approximately 71-80% of
                                                                  Addressed in agencywide
                                                                                                                                   the systems running this software
                                                                          policy?                 Do any agency systems          - Mostly, or on approximately 81-95% of the
                                                                                                    run this software?             systems running this software
                                                                                                                                 - Almost Always, or on approximately 96-100% of the
                                                                             Yes, No,                                            systems running this software
                                                                              or N/A.                    Yes or No.
                                                                                                                                       - Almost Always, or on approximately 96-100% of the
              Windows XP Professional
                                                                                 Yes                         Yes                 systems running this software
                                                                                                                                       - Almost Always, or on approximately 96-100% of the
              Windows NT
                                                                                 Yes                         Yes                 systems running this software
                                                                                                                                       - Almost Always, or on approximately 96-100% of the
              Windows 2000 Professional
                                                                                 Yes                         Yes                 systems running this software
                                                                                                                                       - Almost Always, or on approximately 96-100% of the
              Windows 2000 Server
                                                                                 Yes                         Yes                 systems running this software
                                                                                                                                       - Almost Always, or on approximately 96-100% of the
              Windows 2003 Server
                                                                                 Yes                         Yes                 systems running this software
                                                                                                                                       - Almost Always, or on approximately 96-100% of the
              Solaris
                                                                                 Yes                         Yes                 systems running this software
                                                                                                                                       - Almost Always, or on approximately 96-100% of the
              HP-UX
                                                                                 No                          Yes                 systems running this software
                                                                                                                                       - Almost Always, or on approximately 96-100% of the
              Linux
                                                                                 Yes                         Yes                 systems running this software
                                                                                                                                       - Almost Always, or on approximately 96-100% of the
              Cisco Router IOS
                                                                                 Yes                         Yes                 systems running this software
                                                                                                                                       - Almost Always, or on approximately 96-100% of the
              Oracle
                                                                                 Yes                         Yes                 systems running this software
              Other. Specify: Novell, AIX, Sybase, SQL                                                                                 - Almost Always, or on approximately 96-100% of the
              Server, Cisco PIX, IIS, Apache                                                                                     systems running this software
                                                                                 Yes                         Yes
Comments: W2K Pro is installed only on selected standalone laptops purchased when W2K Pro was the standard Microsoft operating system. These systems
are not part of the NRC production operating environment (POE). HP-UX is found in the production environment, but it is not in widespread use and there is no
baseline. Oracle configuration guides are available, but this software is currently not in production. Oracle is being tested for planned future production use.
Apache configuration guides are also available, but this software is only found in the POE as a customized version that is bundled with the list manager for the
Web interface. It is also installed on a development server. IIS hardening guidelines are included in the Windows 2000/2003 configuration guides. There is an
IIS 5 configuration guide.




                                                                                               44
                                                                          Appendix C – FY 2006 OMB FISMA Reporting Template for Agency IGs
                                                                                                                 Independent Evaluation of
                                                                                                 NRC’s Implementation of FISMA for FY 2006

                                                                                 Question 7

Indicate whether or not the following policies and procedures are in place at your agency. If appropriate or necessary, include comments in the area provided below.

                    The agency follows documented policies and procedures for identifying and reporting
       7.a.         incidents internally.                                                                                                        Yes
                    Yes or No.
                    The agency follows documented policies and procedures for external reporting to law
       7.b.         enforcement authorities.                                                                                                     Yes
                    Yes or No.
                    The agency follows defined procedures for reporting to the United States Computer
       7.c.         Emergency Readiness Team (US-CERT). http://www.us-cert.gov                                                                   Yes
                    Yes or No.
Comments:

                                                                                 Question 8


                    Has the agency ensured security training and awareness of all employees, including
                    contractors and those employees with significant IT security responsibilities?

                    Response Choices include:
                                                                                                                     - Mostly, or approximately 81-95% of employees have sufficient
         8          - Rarely, or, approximately 0-50% of employees have sufficient training                         training
                     - Sometimes, or approximately 51-70% of employees have sufficient training
                     - Frequently, or approximately 71-80% of employees have sufficient training
                     - Mostly, or approximately 81-95% of employees have sufficient training
                     - Almost Always, or approximately 96-100% of employees have sufficient training


                                                                                 Question 9

                    Does the agency explain policies regarding peer-to-peer file sharing in IT security
         9          awareness training, ethics training, or any other agency wide training?                                                      Yes
                    Yes or No.




The following supplemental information is provided in support of the FY 2006 Office of
Management and Budget (OMB) Federal Information Security Management Act (FISMA)
Reporting Template for Agency Inspectors General for the Nuclear Regulatory Commission
(NRC). The independent evaluation of NRC’s implementation of FISMA for FY 2006 was
conducted by Richard S. Carson and Associates, Inc. (Carson Associates) on the behalf of the
NRC Office of the Inspector General (OIG).

Question 1a. NRC has a total of 3024 operational systems that fall under FISMA reporting
requirements. 25 Of the 30, 17 are general support systems, and 13 are major applications. As
required by FISMA, the NRC OIG selected a subset of NRC systems for evaluation during the
FY 2006 FISMA independent evaluation. However, during the course of fieldwork, the OIG
learned that the re-certification and re-accreditation of these systems, scheduled to be completed
by August 2006, would not be completed during the FY 2006 FISMA reporting period.
Furthermore, there were no other systems to evaluate because there were only two operational
systems with a current certification and accreditation at the time the OIG was selecting systems
for evaluation. One of these systems was evaluated by the OIG in FY 2006 and the other
system’s certification and accreditation expired during the FY 2006 FISMA reporting period.
Without enough systems with current certifications and accreditations, Carson Associates could

24
    The agency reports 31 operational systems. The OIG disagrees with the agency that an OIG system is a major
   application. It has been categorized as a listed system since it began operations in 2004. This designation is
   presently under a detailed review. Therefore, the metrics submitted by the OIG reflect a total of 30 operational
   systems.
25
    NRC also has a number of major applications and general support systems currently in development. For FISMA
   reporting purposes, only operational systems are considered.


                                                                                     45
                                          Appendix C – FY 2006 OMB FISMA Reporting Template for Agency IGs
                                                                                 Independent Evaluation of
                                                                 NRC’s Implementation of FISMA for FY 2006

not perform an evaluation of a representative subset of agency systems for the FY 2006 FISMA
independent evaluation.

Question 1.b. NRC has a total of 12 systems operated by a contractor or other organization on
behalf of the agency (8 major applications and 4 general support systems). Of the 12, 7 are
operated by other Federal agencies, 2 are operated by federally funded research and development
centers, and 3 are operated by private contractors. Carson Associates selected 1 of the 12
systems operated by a contractor or other organization on behalf of the agency for evaluation
during the FY 2006 FISMA independent evaluation. However, that system did not have a
current certification and accreditation and there was not sufficient information available to
perform an evaluation.

Question 2. The metrics in Question 2 represent the status for all NRC systems, not just a subset
of systems.

Question 2.a. Only one agency system is certified and accredited, and only four systems
operated by a contractor or other organization on behalf of the agency are certified and
accredited. NRC is still developing procedures for maintaining documentation that demonstrates
systems provided by other Federal agencies meet FISMA requirements and that other contractor
systems are certified and accredited.

In accordance with OMB requirements, the fact that only 1 of the 30 operational NRC
information systems has a current certification and accreditation, and that only 4 of the 12
systems used or operated by a contractor or other organization on behalf of the agency have a
current certification and accreditation, constitutes a significant deficiency.

Question 2.b. NRC meets the FISMA requirement to test and evaluate the security controls of
agency information system by performing annual self-assessments on the systems. In addition,
NRC developed a self-assessment for common controls that are applicable to all NRC systems.
NRC performed self-assessments on all agency operational systems with the exception of one
general support system. NRC also performed self-assessments on the four NRC regions and the
NRC Technical Training Center.

NRC performed self-assessments on 4 of the 12 systems operated by a contractor or other
organization on behalf of the agency. The remaining 8 systems are operated by other Federal
agencies. NRC is still developing procedures for maintaining documentation that demonstrates
systems provided by other Federal agencies meet FISMA requirements.

Question 2.c. Only three agency systems had their contingency plans tested in the last year. The
agency has reported that two additional major applications had their contingency plans tested in
the past year. However, the testing results for these systems are still under review by the agency.
Therefore, those systems are not included in the metrics. The agency has also reported that one
contractor system had its contingency plan tested in the past year. NRC is still developing
procedures for maintaining documentation that demonstrates systems provided by other Federal
agencies meet FISMA requirements.




                                                 46
                                                 Appendix C – FY 2006 OMB FISMA Reporting Template for Agency IGs
                                                                                        Independent Evaluation of
                                                                        NRC’s Implementation of FISMA for FY 2006

In accordance with OMB requirements, the fact that the agency has failed to conduct annual
contingency plan testing for the past two years constitutes a significant deficiency.

Question 3.a. NRC presumes that the Federal agencies that operate 8 of the 12 contractor
systems are also following FISMA and guidelines from the National Institute of Standards and
Technology (NIST). However, the agency is still implementing recommendations from the FY
2005 FISMA independent evaluation to (1) maintain copies of all certification and accreditation
documentation for these systems, (2) verify that the security controls have been tested and
evaluated for these systems on an annual basis, and (3) verify that the contingency plans have
been tested and evaluated for these systems on an annual basis. The agency has been working
with the offices to assist in acquiring the required documentation for the contractor systems
provided by other Federal agencies. However, according to the agency, some of the other
Federal agencies have been unwilling to provide documentation that demonstrates they meet
FISMA requirements. The other Federal agencies have also been unwilling to share copies of
their annual self-assessments or results from their annual contingency plan testing. In a follow-
up memorandum to the agency regarding the status of these recommendations, the OIG
suggested a possible solution to the problem. The OIG stated that a memorandum from the
Federal agencies stating that annual self-assessments and annual contingency plan testing have
been completed will be sufficient to meet the intent of the recommendations. The agency is
currently working towards obtaining such memoranda.

The agency is also still developing procedures for performing sufficient oversight and evaluation
for contractor systems provided by private contractors to ensure the information systems meet
requirements of FISMA, OMB policy, NIST guidelines, and agency policy.

Question 3.b.1. While FISMA requires agencies to maintain an inventory of only major
information systems (major applications and general support systems), NRC also tracks two
other system types in its inventories – Listed26 and Other.27 The FY 2005 FISMA independent
evaluation found that the agency’s inventory was only 51-70 percent completed because (1)
information in the agency’s two inventory systems was inaccurate and inconsistent and (2) only
one of the two inventory systems contained information on system interfaces. In FY 2006,
Carson Associates did not evaluate whether the agency inventory included information on
system interfaces as the agency has not completed the recommendations resulting from the FY
2005 FISMA independent evaluation regarding problems with the inventory.

Question 3.b.2. The agency’s Network Continuity of Operations system is currently categorized
as a listed system. In accordance with OMB guidance, the NRC Network Continuity of
Operations system is a high-impact system, and therefore should be categorized as a general
support system, and not a listed system.

26
    A Listed system is a computerized information system or application that (1) processes sensitive information
   requiring additional security protections and (2) may be important to an NRC office’s or region’s operations, but
   which is not a major application or general support system when viewed from an agency perspective. Sensitive
   data may include individual Privacy Act information, law enforcement sensitive information, sensitive contractual
   and financial information, safeguards, and classified information.
27
    An Other system is an NRC system that does not require additional security protections and is adequately
   protected by the security provided by the NRC local area network/wide area network.


                                                         47
                                                  Appendix C – FY 2006 OMB FISMA Reporting Template for Agency IGs
                                                                                         Independent Evaluation of
                                                                         NRC’s Implementation of FISMA for FY 2006



Question 3.c. Carson Associates generally agreed with the CIO on the number of agency owned
major applications and general support systems. However, Carson Associates did not fully
evaluate the completeness of the agency’s inventory, as the agency has not completed the
recommendations resulting from the FY 2005 FISMA independent evaluation regarding
problems with the inventory.

Question 3.e. Carson Associates did not fully evaluate whether the agency inventory is
maintained and updated at least annually, as the agency has not completed the recommendations
resulting from the FY 2005 FISMA independent evaluation regarding problems with the
inventory.

Question 3.f. The FY 2005 FISMA independent evaluation found that e-authentication risk
assessments had been completed for only 6 of the agency’s 27 operational systems.28 In FY
2005, Carson Associates reviewed the six completed e-authentication risk assessments and found
them to be incorrect and inconsistent with the systems’ security categorizations. In FY 2005, the
agency stated that e-authentication risk assessments would be “supported under the interim
Information Systems Security contract awarded August 11, 2005 and were expected to be
completed by December 15, 2005.” However, as of September 1, 2006, the agency had only
provided e-authentication risk assessments for 10 of the agency’s 30 operational systems, and 1
of the agency’s contractor systems.

Question 4. While the agency’s POA&M process is adequate, the agency has made minimal
progress in correcting weaknesses reported on it POA&Ms. The agency has corrected 15 percent
of its program level weaknesses, and 22.7 percent of its system level weaknesses. The majority
of delays have been caused by delays in completing certifications and accreditations.

Question 5. To correct weaknesses identified by the FY 2005 FISMA independent evaluation by
the NRC OIG, and to address findings from the agency’s own evaluation, the agency has
refocused its information system security program. Under the refocused program, the agency
will first perform certification and accreditation for those systems that are a high priority from a
mission perspective, and those that potentially pose a higher security risk (e.g., agency systems
that communicate with systems outside the NRC network). The first phase of the refocused
program included the development of a comprehensive certification and accreditation process,
which is not yet finalized. The agency developed templates for all certification and accreditation
documents and instructions for completing the templates. The updated certification and
accreditation process was also integrated into the agency’s new project management
methodology. One of the agency’s operational major applications was chosen to “pilot” the new
process and documentation standards, in part, to ensure the new process is repeatable.

The refocused program has not resulted in the completion of a single certification and
accreditation despite the (1) emphasis on the certification and accreditation of high priority
systems and systems with a higher security risk and (2) application of at least $500,000 in
funding to this initiative since December 2005. In the meantime, the certifications and

28
     In FY 2005, the agency had 27 operational systems. The agency now has 30 operational systems.


                                                         48
                                          Appendix C – FY 2006 OMB FISMA Reporting Template for Agency IGs
                                                                                 Independent Evaluation of
                                                                 NRC’s Implementation of FISMA for FY 2006

accreditations for all but one of the agency’s operational systems have expired. The certification
and accreditation for the one agency system that was current during the evaluation expires in
October 2006.

As stated previously, the fact that only 1 of the 30 operational NRC information systems has a
current certification and accreditation, and that only 4 of the 12 systems used or operated by a
contractor or other organization on behalf of the agency have a current certification and
accreditation, constitutes a significant deficiency.

Question 8. NRC ensures all employees and contractors receive security awareness and training.
However, the FY 2005 FISMA independent evaluation found that the agency had difficulty in
gathering the information needed to report on (1) the total number of employees with significant
IT security responsibilities, (2) the number of those employees who have received specialized
training, and (3) the total costs for providing IT training. The agency is still developing
procedures for ensuring employees with significant information technology security
responsibilities receive security training.




                                                 49
        Appendix C – FY 2006 OMB FISMA Reporting Template for Agency IGs
                                               Independent Evaluation of
                               NRC’s Implementation of FISMA for FY 2006




[Page intentionally left blank]




               50
                                Appendix D – Formal Agency Comments
                                             Independent Evaluation of
                              NRC’s Implementation of FISMA for FY 2006

FORMAL AGENCY COMMENTS




                         51
       Appendix D – Formal Agency Comments
                    Independent Evaluation of
     NRC’s Implementation of FISMA for FY 2006




52
       Appendix D – Formal Agency Comments
                    Independent Evaluation of
     NRC’s Implementation of FISMA for FY 2006




53
       Appendix D – Formal Agency Comments
                    Independent Evaluation of
     NRC’s Implementation of FISMA for FY 2006




54
